<html>
<title> - STRENGTH THROUGH KNOWLEDGE: HOMELAND SECURITY SCIENCE AND TECHNOLOGY SETTING AND STEERING A STRONG COURSE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 STRENGTH THROUGH KNOWLEDGE: HOMELAND SECURITY SCIENCE AND TECHNOLOGY 
                  SETTING AND STEERING A STRONG COURSE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                 SCIENCE, AND RESEARCH AND DEVELOPMENT

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2003

                               __________

                           Serial No. 108-33

                               __________

Printed for the use of the Subcommittee on Cybersecurity, Science, and 
Research and Development, and the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
97-415                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012004


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida              BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York           New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                   District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona              U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

        .........................................................

                                 ______

   Subcommittee on Cybersecurity, Science, and Research & Development

                    MAC THORNBERRY, Texas, Chairman

PETE SESSIONS, Texas, Vice Chairman  ZOE LOFGREN, California
SHERWOOD BOEHLERT, New York          LORETTA SANCHEZ, California
LAMAR SMITH, Texas                   ROBERT E. ANDREWS, New Jersey
CURT WELDON, Pennsylvania            SHEILA JACKSON-LEE, Texas
DAVE CAMP, Michigan                  DONNA M. CHRISTENSEN, U.S. Virgin 
ROBERT W. GOODLATTE, Virginia        Islands
PETER KING, New York                 BOB ETHERIDGE, North Carolina
JOHN LINDER Georgia                  CHARLES GONZALEZ, Texas
MARK SOUDER, Indiana                 KEN LUCAS, Kentucky
JIM GIBBONS, Nevada                  JAMES R. LANGEVIN, Rhode Island
KAY GRANGER, Texas                   KENDRICK B. MEEK, Florida
CHRISTOPHER COX, California, ex      JIM TURNER, Texas, ex officio
officio

                                  (ii)


                            C O N T E N T S

                              ----------                              


                               STATEMENTS

The Honorable Mac Thornberry, Chairman, Subcommittee on 
  Cybersecurity, Science, and Research and Development, and a 
  Representative in Congress From the State of Texas.............     1
The Honorable Christopher Cox, Chairman, Select Committee on 
  Homeland Security, and a Representative in Congress for the 
  State of California............................................    14
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey
  Oral Statement.................................................    19
  Prepared Statement.............................................     1
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    21
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada
  Prepared Statement.............................................     1
The Honorable Zoe Lofgren, Ranking Member, Subcommittee on 
  Cybersecurity, Science, and Research and Development
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Pete Sessions, a Representative in Congress From 
  the State of Texas.............................................    19

                                WITNESS

Dr. Penrose Abright, Assistant Secretary for Science and 
  Technology Department of Homeland Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     8

                                APPENDIX
               Materials Submitted for the Hearing Record

Questions and Responses from Dr. Penrose Albright................    32

                                 (III)

 
 STRENGTH THROUGH KNOWLEDGE: HOMELAND SECURITY SCIENCE AND TECHNOLOGY 
                  SETTING AND STEERING A STRONG COURSE

                              ----------                              


                       Thursday, October 30, 2003

                     U.S. House of Representatives,
                     Select Committee on Homeland Security,
  Subcommittee on Cybersecurity, Science, and Research and 
                                                Development
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 4:15 p.m., in 
Room 210, Cannon House Office Building, Hon. Mac Thornberry 
[chairman of the subcommittee] presiding.
    Present: Representatives Thornberry, Sessions, Linder, 
Granger, Cox (ex officio), Lofgren, Andrews, Etheridge, Lucas, 
Meek, and Turner (ex officio).
    Mr. Thornberry. The subcommittee will come to order.
    And let me thank you first, Doctor, for your patience with 
our unpredictable schedule around here.
    I want to ask unanimous consent that all Members be able to 
offer opening statements into the record.
    [The information follows:]

PREPARED STATEMENT OF THE HONORABLE ROBERT E. ANDREWS, A REPRESENTATIVE 
                IN CONGRESS FROM THE STATE OF NEW JERSEY

     The government has a history of driving technology innovations, 
including the essential software development conducted with Defense 
Department funding that laid a foundation for today's Internet. It 
would be very unfortunate-indeed, counterproductive-if companies were 
reluctant to adopt promising security technologies produced by federal 
research. As you move forward with your research agenda, I hope you 
will support technology transfer licensing models that empower the 
private sector to improve upon the government's work and to 
commercialize the resulting technology.

 PREPARED STATEMENT OF THE HONORABLE JIM GIBBONS, A REPRESENTATIVE IN 
                   CONGRESS FROM THE STATE OF NEVADA

    Chairman Thornberry, thank you for bringing us together today for 
this hearing on the long-term research and development plans of the 
Department of Homeland Security (DHS). Thank you, Dr. Albright for 
coming to testify before the Committee.
    The ability to bring together the brightest minds in America to 
work on the common cause of securing our homeland is one of the most 
important tasks that face us as a nation. We are in a war, not only 
with terrorists and terrorist organizations, but with states who would 
seek to profit off of the proliferation of weapons of mass destruction. 
In that vein, our technologies and brightest minds need to be able to 
defeat the most advanced WMD technologies while at the same time, we 
need to be able to defeat a single fanatic carrying box-cutters or a 
deadly disease. This is a daunting task, but the consequences of 
failure are too great.
    As we saw on 9-11, our enemies will go after our vulnerabilities in 
any way they can. While these threats will be hard to predict and 
difficult to prioritize, I wanted to take this opportunity to mention a 
serious potential threat that I see on the horizon that I do not 
believe is being adequately planned for.
    Currently, our nuclear plants and facilities have increased 
security in order to protect against a catastrophic attack against our 
nuclear facilities and infrastructure. However, in the not-so-distant 
future we will be confronted with a new nuclear security dilemma.
    Unless we change our course, we will soon have the additional 
burden of protecting against attacks on the shipment of highly 
radioactive spent nuclear fuel from points across this country to Yucca 
Mountain. I think that bears repeating: We will be taking this highly 
radioactive nuclear fuel out of secure locations, putting it on trucks 
and trains and moving it cross-country through populated areas across 
America. As long as these shipments are an attractive target for 
terrorists, they will be vulnerable to an attack.
    The key way to protect against this threat, from my perspective, is 
to not make these shipments in the first place . However, the 
Department of Energy continues to push forward with the Yucca Mountain 
license at any cost, so it is my responsibility to make sure we are 
prepared for this eventuality. As a result, at the very least, we need 
to make sure that the nuclear waste casks they will be shipped in are 
so ?hardened? that they will not make an attractive target.
    The design for the Spent Fuel Packages that will be used to 
transport this waste is currently being reviewed by Sandia National 
Labs for the Nuclear Regulatory Commission. If this study is properly 
performed, it can provide us with important information on the safety 
of these shipments and their vulnerabilities. However, I?m very 
concerned that the ?Package Performance Study? will not take into 
consideration the effects of deliberate acts of sabotage and terrorism.
    The consequences of a successful attack on one of these canisters 
would be horrific. It is very clear to me that this is an issue that 
the Department of Homeland Security must address immediately, since now 
is the time to weigh in, while the Spent Fuel Packages are still being 
reviewed.
    Thank you again Mr. Chairman and Dr. Albright. I look forward to 
working with you both to see that our homeland security science and 
technology needs are met.

    Mr. Thornberry. I simply want to say that we had before 
this subcommittee Dr. McQueary back in May to talk to us about 
the beginning of the Science and Technology Directorate. We 
have subsequently had several sessions to try to understand 
better some of the key technologies dealing with homeland 
security, namely nuclear and radiological detection, first 
responder communications, and things like that. And we are 
interested today to get an update and status report both on how 
the Department is shaping up and conducting its business, but 
also Members may well want to explore some particular areas of 
technology.
    And so with that, I also want to again thank Eric Fisher 
and his team from the Congressional Research Service for their 
support of this subcommittee, as well as my partner Ms. 
Lofgren. And I will yield to her at this point for any opening.
    Ms. Lofgren. Thank you. I have an opening statement that I 
will submit for the record. But I just wanted to note that it 
has been about 6 months since Dr. McQueary appeared before us, 
and he at that time mentioned seven specific areas for emphasis 
of the Directorate, and I am hoping that you can give us an 
update of where we are on all seven of those. I also hope that 
we can find out the progress of the MOU with NIST, how that is 
working.
    Also, when Dr. McQueary appeared before us, I had an 
interest in what we were doing in terms of standards-setting on 
biometrics, and I am still interested in that and would like to 
be more knowledgeable about our efforts there.
    Finally, I would just like to--I don't know how many more 
hearings we will have before we recess, but I would like to 
thank Mac Thornberry for his leadership of his subcommittee 
this year. I think you have done a terrific job, and I think 
you have led the subcommittee well and with great fairness, and 
I really appreciate the work we have done together.
    I also want to thank the staff of the subcommittee for 
their work during our inaugural year, and in particular Kim 
Kotlar and Margie Gilbert on your staff who are really very 
able, and on the Democratic side Jessica Herrera, and David 
Grannis and Dan Prieto, who have also done a very good job. And 
I think really this subcommittee is an example of what can 
happen when we work, and not on a bipartisan but really a 
nonpartisan basis. So it has been a pleasure being a part of 
that. And I yield back.
    Mr. Thornberry. I thank the gentlelady for her comments, 
and certainly share them with regard to the staff.
    [The information follows:]

   PREPARED STATEMENT OF THE HONORABLE ZOE LOFGREN, RANKING MEMBER, 
 SUBCOMMITTEE ON SUBCOMMITTEE ON CYBERSECURITY, SCIENCE, AND RESEARCH 
                            AND DEVELOPMENT

    Thank you Chairman Thornberry.
    Almost 6 months ago, Under Secretary Dr. Charles E. McQueary of the 
Department of Homeland Security's Science and Technology Directorate 
testified before this subcommittee. It was the first hearing held by 
this subcommittee and it marked the beginning of our look into the work 
being done at the Department of Homeland Security.
    At that time, Dr. McQueary was new to the job, and he spoke about 
his priorities for the S&T Directorate.
    In his testimony, Dr. McQueary said ``The most important mission 
for the Science and Technology Directorate is to develop and deploy 
cutting edge technologies and new capabilities, so that the dedicated 
men and women who have the awesome responsibility to secure our 
homeland could perform their jobs more effectively and efficiently.''
    He also mentioned 7 specific areas of emphasis for the Directorate. 
These included the following:
        1. Develop and deploy state-of-the art, high-performance, low 
        operating-cost systems to prevent the illicit traffic of 
        radiological/nuclear materials and weapons into and within the 
        United States.
        2. Provide state-of-the art, high-performance, low operating-
        cost systems to rapidly detect and mitigate the consequences of 
        the release of biological and chemical agents.
        3. Provide state-of-the art, high-performance, low operating-
        cost systems to detect and prevent illicit high explosives 
        transit into and within the United States
        4. Enhance missions of all Department operational units through 
        targeted research, development, test and evaluation (RDT&E), 
        and systems engineering and development.
        5. Develop and provide capabilities for protecting cyber and 
        other critical infrastructures.
        6. Develop capabilities to prevent new-technology as a surprise 
        weapon by anticipating emerging threats.
        7. Develop, coordinate and implement technical standards for 
        chemical, biological, radiological, and nuclear (CBRN) non-
        medical countermeasures.
    Mr. Chairman, Dr. McQueary proposed an ambitious agenda at that 
first hearing and the Members of this subcommittee were willing to give 
the Directorate some time to organize.
    Now that the Directorate has had 6 months to get up and running, I 
think this is an appropriate time to review what has been accomplished 
thus far, and what has yet to be done.
    Today we will hear from Dr. Penrose (Parney) C. Albright, Assistant 
Secretary for Plans, Programs, and Budget within the Science and 
Technology Directorate.
    Dr. Albright, I look forward to hearing about the progress that has 
been made since we heard from Dr. McQueary.
    I hope you will take some time today to discuss the status of Dr. 
McQueary's seven areas of emphasis.
    In addition, I would like you to address some other issues that I 
addressed to Dr. McQueary last spring and I hope you will take some 
time today to discuss the following:
        1. How is the Memorandum of Understanding (MOU) with the 
        Department of Commerce's Technology Administration's National 
        Institute of Standards and Technology (NIST) working? Do we 
        need to be looking at any particular issues that have arisen 
        out of this agreement, particurly in the area of ensuring that 
        the funding needed to engage in some of this new cooperation is 
        available?.
        2. What steps have been undertaken and or being undertaken to 
        engage the private sector in the development of new 
        technologies and strategies we will need in the future, both 
        short-term and long-term?
        3. What has the Department of Homeland Security been doing in 
        the area of biometrics? Should we being doing more and are 
        there any challenges that you have encountered thus far that 
        this subcommittee should be aware of?
    Before I conclude, I want to note that this is likely to be the 
last hearing this subcommittee will hold before Congress adjourns for 
the year. I want to take just a minute to thank my colleague Mac 
Thornberry for his leadership of this subcommittee this year. Mac is a 
smart and able public servant, and he has led this subcommittee in a 
fair and bipartisan manner. I greatly look forward to continuing our 
work in 2004.
    I also want to thank the staff of the Cybersecurity subcommittee 
for their work throughout our inaugural year. They have done terrific 
work getting this subcommittee up and running. In particular, let me 
mention Kim Kotlar and Margie Gilbert on Mr. Thornberry's staff. And on 
the Democratic staff, let me thank Jessica Herrera, David Grannis and 
Dan Preito.

    Mr. Thornberry. Dr. Albright, thank you for being with us. 
I would like to now turn to you for your statement. Again, our 
witness is Dr. Parney Albright, Assistant Secretary for Plans, 
Programs, and Budget in the Science and Technology Directorate 
of the Department of Homeland Security. You are recognized for 
your opening statement.

  STATEMENT OF PENROSE (PARNEY) C. ALBRIGHT, PH.D., ASSISTANT 
     SECRETARY FOR PLANS, PROGRAMS AND BUDGET, SCIENCE AND 
    TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Albright. Good afternoon, Chairman Thornberry, 
Congresswoman Lofgren, and other members of the subcommittee. I 
am pleased to be here with you today to report on the progress 
of the Science and Technology Directorate of the Department of 
Homeland Security, and report on the progress we are making in 
implementing Title III of the Homeland Security Act of 2002.
    As you noted, Chuck McQueary, the Under Secretary for 
Science and Technology, did appear before this subcommittee on 
May 21st, and I am here to update you on the status of our 
efforts to build out the Directorate.
    In its planning, the Science and Technology Directorate has 
been guided by the Homeland Security Act, current threat 
assessments, our understanding of existing capabilities or 
those that can be anticipated in the near term, and by the 
priorities outlined in the President's National Strategy for 
Homeland Security.
    The Directorate's key missions are to address chemical, 
biological, radiological, nuclear, cyber and other emerging 
threats; to support the R&D needs of the Department; to 
organize and engage and sustain the resources of the national 
research and development community, private industry, academia, 
national and Federal laboratories in protecting the homeland.
    Let me first talk about the progress we have made in 
operating some of our key offices within the Directorate. All 
the key offices of the Science and Technology Directorate 
needed to execute the missions that I just articulated are, in 
fact, operational. Directors with strong credentials have been 
appointed to each office, and we continue to add highly skilled 
technical, professional, and support staff.
    The Office of Plans, Programs and Budgets, which is the 
office I direct, is, in fact, operating. I have organized this 
office into several portfolios that are in line with the scope 
of the Directorate's missions. These portfolios focus on 
countermeasures for chemical, biological, radiological, 
nuclear, cyber, and high-explosive threats, meeting the needs 
of our Federal, State, and local customers, and also developing 
standards to help Federal, State, and local agencies become 
smart buyers of homeland security technologies.
    Directors are now in place for each of these portfolios, 
and we are continuing to build out our staff. The staff of each 
portfolio, their job is to serve as experts in their particular 
area and understand the activities and capabilities that exist 
in Federal agencies and across the broad research and 
development community, and to develop a strategic plan for 
their particular portfolio with near, mid, and long-range 
research and development activities.
    In addition, I have staff that understands the threat from 
a technical perspective and is tasked with integrating the 
various portfolios into a coherent overall plan, with develop a 
corresponding budget, and monitoring its financial execution.
    Finally, I am responsible for directing and executing the 
Directorate's implementation responsibilities for the SAFETY 
Act.
    It is our good fortune to have Dr. David Bolka, who joined 
us last month as the Director of the Homeland Security Advanced 
Research Projects Agency, known as HSARPA. Dr. Bolka made 
significant contributions in advancing technical and scientific 
projects in his prior work with Lucent Technologies and Bell 
Labs.
    HSARPA is the key external research funding arm of the S&T 
Directorate. Its office is engaged in private sector and 
research and development activities in support of our mission 
and our customers. HSARPA also conducts rapid prototyping 
efforts aimed at taking nearly off-the-shelf technologies and 
adapting them for rapid fielding of new capabilities.
    HSARPA's first priority has been to initiate the 
development of the next generation of chemical and biological 
sensors and systems to meet anticipated threats under existing 
conditions. They have engaged the private sector in its first 
solicitations, seeking detection systems for chem and bio 
countermeasures. The interest and response from the private 
sector has been strong. We recently held a bidders' conference 
in Washington on September 29th that drew approximately 400 
participants, and we have received more than 500 white papers 
as a result of the solicitation. We are now selecting the 
finalists who will be invited to submit full proposals, and 
expect to begin contract negotiations in January.
    HSARPA also plans to issue shortly a series of 
solicitations to address radiological, nuclear, and high-
explosive threats. These and other solicitations will seek to 
engage our Nation's research and development community, 
including academia FFRDCs, nonprofits, and industry.
    In fiscal year 2004, about 60 percent of our appropriation 
will go directly to the private sector through HSARPA or other 
S&T entities, with about 90 percent of these funds dedicated to 
near-term technologies that can be quickly developed.
    In addition, we also are pleased to have Dr. Maureen 
McCarthy on board as a Director of Science and Technology's 
Office of Research and Development. Dr. McCarthy has served as 
chief scientist for the National Nuclear Security 
Administration and the Department of Energy, and was DOE's 
senior representative to the Homeland Security Transition 
Planning Office. In fact, she was my deputy as the Transition 
Planning Office was stood up. She leads the office as it 
strives to provide the Nation with an enduring capability in 
research, development, demonstration, testing and evaluation of 
technologies to protect the homeland.
    The activities within the Office of Research and 
Development address the resources that can be brought to bear 
to better secure the homeland through the participation of 
universities, national labs, and Federal research centers. 
Directors have been appointed to lead efforts in each of these 
areas, and staff is being added rapidly.
    We also have asked John Kubricky, and he is to join Science 
and Technology, and he arrived earlier this month as the 
Director of the Office of Systems Engineering and Development. 
Mr. Kubricky previously served as the advanced program 
development manager for Northrop Grumman, and he is leading the 
implementation and transition of large-scale or pilot systems 
to the field through a rapid, efficient, and disciplined 
systems engineering approach.
    One of our key challenges in S&T is to evaluate a wide 
spectrum of military and commercial technologies so that rapid, 
effective, and affordable solutions can be transitioned to the 
Department's customers, to include first responders and Federal 
agencies. In some cases, for example, military technologies 
could be candidates for commercialization, but rigorous system 
engineering processes need to be applied to ensure a successful 
transition.
    An example of this is our 2-year effort to reengineer 
technologies developed in the military so that they can be used 
for protecting civilian aircraft against a shoulder-fired 
missile threat.
    Our Systems Engineering Office will identify and retire in 
a disciplined and efficient manner those risks associated with 
developing and fielding such technologies. In doing so, the 
office must view each technology through the prism of 
affordability, performance, and supportability, all critical to 
our end users. Products must be user-friendly, require little 
or no training, and consistently provide accurate results. So 
our Office of Systems Engineering will demonstrate and test 
solutions before they are released to the field, and will 
validate those solutions to assure that they meet user 
expectations.
    Now, as I indicated earlier, a key mission of ours is to 
support the research and development needs of the operational 
directorates within the Department. Let me say a little bit 
about how we support, as an example, the Information Analysis 
and Infrastructure Protection Directorate. The Department is 
very aware that our critical cyberinfrastructure is an 
attractive target for our adversaries. In support of the IA&IP 
activities in this area, S&T is creating a robust cybersecurity 
research and development capability aimed at addressing our 
cyber vulnerabilities and engaging, for example, in efforts 
that develop tools to make it easier to perform software 
patches or detect the insider threat. This effort will be 
executed through a cyber R&D center managed through HSARPA. A 
center director has been selected along with a deputy director, 
who is from, in fact, our IA&IP Directorate.
    A draft research agenda has been developed, and we are now 
soliciting for a contractor to support the center's operation. 
The contractor will host the necessary public and private 
discussions on technical issues, and will further develop the 
research agenda around the issues identified.
    We also support the IA&IP Directorate with research, 
assessments and guidance in evaluating threats and areas of 
vulnerability. We provide the technical understanding of the 
current and evolving threat and cutting-edge tools to help 
intelligence analysts organize and query their data and to 
connect the dots. We strive to better understand the 
vulnerabilities and risks to our infrastructure while providing 
policymakers with the information they need to efficiently 
allocate resources for their protection.
    We have also established a National Biodefense Analysis and 
Countermeasure Center in support of our Title III 
responsibilities. The National Biodefense Analysis and 
Countermeasure Center, based at Fort Detrick, Maryland, is the 
hub within Homeland Security for research and operational 
capabilities to anticipate, prevent, respond to, and recover 
from current and next-generation biological threats to the 
American people and our agricultural system. It has three 
programmatic thrusts: Biodefense characterization, 
bioforensics, and agricultural security. And these are executed 
through five research and operations center. An interim 
capability is currently operational today at Fort Detrick with 
spoke operations at our national labs.
    DHS is also contributing to a governmentwide effort to 
build U.S. leadership in science and technology. We are 
reaching out to the academic community to provide students with 
opportunities to pursue career paths in sectors of science and 
technology that are vital to our national security. Two 
examples of this are the Homeland Security Centers of 
Excellence Program and our Scholars and Fellows Program.
    Within the Centers of Excellence Program, the Department 
plans to establish a network of university-based homeland 
security centers, each with a different area of focus in 
research and development. The first center will examine the 
Nation's resiliency to various acts of terrorism in terms of 
impact and consequences, using risk-based economic modeling. 
Seventy universities submitted white papers, and of these, 12 
were invited to submit full proposals. We plan to announce the 
first Center of Excellence in late November.
    Also, the first 100 awardees of the Homeland Security 
Scholars and Fellows Program began their studies this fall. 
These men and women will study in areas aligned to our mission, 
such as the life sciences, engineering, computers, information 
sciences, social sciences, and psychology.
    And while the Science and Technology Directorate is ramping 
up, we have also been very hard at work delivering capability. 
My statement for the record that I am submitting today includes 
several examples of the Directorate's current accomplishments 
as well as capabilities that will be available within the next 
few months, in the very near term.
    Mr. Chairman, Congresswoman Lofgren, and members of the 
subcommittee, this concludes my prepared statement. I am happy 
to address any questions you have.
    Mr. Thornberry. Thank you, Dr. Albright. And let me just 
compliment you on your written statement. It was certainly more 
thorough and more direct than a lot that we get up here, and it 
was very helpful, and I want to compliment you on that.
    [The statement of Dr. Albright follows:]

               PREPARED STATEMENT OF DR. PENROSE ALBRIGHT

    Good afternoon Chairman Thornberry, Congresswoman Lofgren, and 
Members of the Subcommittee. I am pleased to appear before you today to 
report on the progress the Science and Technology Directorate of the 
Department of Homeland Security is making in implementing Title III of 
the Homeland Security Act of 2002. Dr. Charles McQueary, Under 
Secretary for Science & Technology, appeared before this Subcommittee 
on May 21, 2003 and I am pleased to have the opportunity to update you 
on the status of our efforts to build out the Directorate. In its 
planning, the S&T Directorate has been guided by the Homeland Security 
Act, current threat assessments, our understanding of existing 
capabilities or those that can be anticipated in the near term, and by 
the priorities outlined in the President's National Strategy for 
Homeland Security. In short, we are shaping the Directorate to serve as 
the Department's hub for research and development for exposing and 
countering chemical, biological, radiological, nuclear, high-explosive 
and cyber threats against the United States and its people.

    Progress in Operations of Key Offices
    I am pleased to report that all key offices of the Science & 
Technology Directorate are operational. Directors with strong 
credentials have been appointed to each office and we continue to 
strategically add highly skilled technical, professional and support 
staff. The offices originally planned are up and running and include: 
Plans, Programs and Budgets; Research and Development; Homeland 
Security Advanced Research Projects Agency; and Systems Engineering and 
Development.
    The Science and Technology Directorate is implementing its 
activities through focused portfolios that address chemical, 
biological, radiological and nuclear and cyber threats; support the 
research and development needs of the operational units of the 
Department; and receive valuable input from private industry and 
academia as well as national and Federal laboratories.

    Office of Plans, Programs and Budgets
    The Office of Plans, Programs and Budgets (PPB) is operating under 
my supervision. I have organized this office into several portfolios, 
each of which is focused on a particular discipline or activity; taken 
together, these portfolios span the Directorate's mission space. A key 
mission for the S&T Directorate is to act as the Department's focal 
point and advocate for countermeasures to weapons of mass destruction. 
Thus, there are portfolios that address countermeasures for chemical, 
biological, radiological, nuclear, cyber, and high-explosives threats. 
A further key mission for the Directorate is to provide the research, 
development, test and evaluation for our customers in the other 
directorates. Thus, there are portfolios focused on borders and 
transportation security, intelligence analysis and critical 
infrastructure, and emergency preparedness and response. Finally, there 
is a portfolio dedicated to developing standards for technologies for 
homeland security to better aid Federal, State, and local agencies in 
being smart buyers of homeland security technologies.
    Directors are now in place for each of the portfolios and we are 
continuing to build out our staff. The staff of each portfolio is 
charged with being expert in their particular area, with understanding 
the activities and capabilities extant in Federal agencies and across 
the broad research and development community; and with developing a 
strategic plan for their particular portfolio, to include near-, mid-, 
and long-range research and development activities. In addition, I have 
staff that is charged with understanding the threat from a technical 
perspective, with integrating the various portfolios into a coherent 
overall plan, with developing the corresponding budget, and monitoring 
its financial execution. Finally, I am responsible for executing the 
Directorate's implementation responsibilities for the SAFETY Act.

    Homeland Security Advanced Research Projects Agency
    It is our good fortune that Dr. David Bolka joined us last month as 
director of the Homeland Security Advanced Research Projects Agency, 
known as HSARPA. Dr. Bolka made significant contributions in advancing 
technical and scientific projects in his prior work with Lucent 
Technologies and Bell Laboratories, following a notable Naval career.
    HSARPA's Chemical/Biological Technical Office is fully operational. 
Other offices will address the technical aspects of countering 
radiological, nuclear, high explosives and cyber threats. Still others 
will have informational analysis, rapid prototyping/testbeds and 
conventional R&D as a focus. In addition, an area of special interest 
for this office will be the role that human psychology plays in terror 
threats and attacks.
    HSARPA is the external research-funding arm of the S&T Directorate. 
It has at its disposal the full range of contracting vehicles and the 
authority under the Homeland Security Act to engage businesses, 
federally funded research centers, universities and other government 
partners in an effort to gather and develop viable concepts for 
advanced technologies to protect the homeland.
    HSARPA's mission is to identify and develop revolutionary 
technologies, satisfy DHS customers' operational needs for advanced 
technology, and quickly produce prototypes that lend themselves to 
commercial applications. Its customers are State and local first 
responders and Federal agencies that are allied with homeland security 
such as the Coast Guard, Secret Service, Citizenship and Immigration, 
the Federal Emergency Management Agency and others.
    HSARPA's first priority is to seed the development of the next 
generation of chemical/biological sensors and systems to meet 
anticipated threats under existing conditions. We are interested in a 
timeline of 6 to 24 months for taking a technology from concept to 
prototype. HSARPA has engaged the private sector in its first 
solicitation [HSARPA RA 03-01], seeking detection systems for chemical 
and biological weapons and associated materials. Interest and response 
from the private sector has been strong. S&T held a bidders' conference 
in Washington on September 29 that drew approximately 400 participants 
and we have received more than 500 white papers as a result. The next 
step is to select the finalists who will be invited to submit full 
proposals. We expect to begin contract negotiations in late January.
    HSARPA plans to issue a series of solicitations to address 
radiological, nuclear and high-explosives threats shortly. These and 
other solicitations will seek to engage our Nation's research and 
development community, including academia, FFRDC's, non-profits, and 
industry.
    In fiscal year 2004, HSARPA will execute about 40 percent of 
appropriations for S&T. Nearly 23 percent of the directorate's R&D 
budget of $874 million will go to biological countermeasures while 
about 6 percent is for chemical countermeasures. In addition, 10 
percent of these funds are dedicated for revolutionary, long-range 
research for breakthrough technologies and systems, while the rest is 
dedicated to improving existing technologies that can be developed more 
quickly.

    Office of Research and Development
    We are pleased to have Dr. Maureen McCarthy on board as Director of 
Science and Technology's Office of Research and Development (OR&D). Dr. 
McCarthy has served as Chief Scientist for the National Nuclear 
Security Administration and the Department of Energy and was previously 
DOE's senior representative to the Homeland Security Transition 
Planning Office. She will lead the office as it strives to provide the 
nation with an enduring capability in research, development, 
demonstration, testing and evaluation of technologies to protect the 
homeland. This office also plans to provide stewardship to the 
scientific community and to preserve and broaden the leadership of the 
United States in science and technology.
    Activities within OR&D address the resources that can be brought to 
bear to better secure the homeland through the participation of 
universities, national laboratories, Federal laboratories and research 
centers. Directors have been appointed to lead efforts in each of these 
areas and staff is being added rapidly.

    Office of Systems Engineering and Development
    John Kubricky joined S&T earlier this month as Director of the 
Office of Systems Engineering and Development (SE&D). He is tasked with 
leading the implementation and transition of large-scale or pilot 
systems to the field through a rapid, efficient and disciplined 
approach to project management. Mr. Kubricky previously served as 
Advanced Program Development Manager for Northrop Grumman and has held 
senior positions with California Microwave, Westinghouse Defense and 
with the U.S. Army Ninth Infantry Division.
    One of S&T's challenges is to evaluate a wide spectrum of military 
and commercial technologies so rapid, effective and affordable 
solutions can be transitioned to Department's customers that include 
first responders and Federal agencies. In some cases, military 
technologies could be candidates for commercialization, but rigorous 
systems engineering processes need to be applied to ensure a successful 
transition. SE&D's role is to identify and then in a disciplined manner 
retire risks associated with such technologies to ready them for 
deployment to the field. In doing so, the office must view each 
technology through the prism of affordability, performance and 
supportability--all critical to end-users. SE&D must weigh 
considerations such as the urgency for a solution, consequences of the 
threat, safety of the product, lifecycle support and other factors as 
new products are introduced. Products must be user friendly, have a 
minimum of false alarms, require little or no training and consistently 
provide accurate results. SE&D will demonstrate and test solutions 
before they are released to the field, and will validate that those 
solutions meet user expectations.

    Office of Weapons of Mass Destruction and Office of Incident 
Management
    Under Secretary McQueary created this office to serve as S&T's arm 
for crisis response. The office assists and provides scientific advice 
to the Office of the Secretary of Homeland Security in assessing and 
responding to threats against the homeland. Activities of this office, 
which is focused on the biological, chemical, radiological, and nuclear 
threats, revolve around response coordination, providing scientific and 
technical expertise in developing operational plans and assessment of 
threats, and continuity of operations.

    Collaborative Efforts in Critical Infrastructure Protection
    America's critical infrastructure is a web that connects virtually 
every aspect of modern society. The Department's efforts in this area 
span 14 sectors and assets that are in need of particular attention. 
These include agriculture, food, water, public health, information and 
telecommunications, energy, hazardous materials, and national 
monuments, among others. A major disruption to any of these sectors 
will impact others and could have far-reaching implications in terms of 
quality of life for large numbers of Americans.
    Acts of terrorism are not solely about loss of life. Acts can also 
occur that are aimed at creating widespread panic among our citizens, 
and disrupting our financial markets and economic well being. The 
Department's role here is prevention, protection, response and 
recovery. Adding to the complexity of our job is the fact that much of 
the nation's critical infrastructure is privately held and not 
controlled by the Federal government. This underscores the need for 
strategic collaborations among DHS and other agencies in local, State 
and Federal government, in academia and the private sector--and I am 
pleased to say we continue to make strong progress in this area.
    S&T supports the Department's Information Analysis and 
Infrastructure Protection Directorate with research, assessments and 
guidance in evaluating threats and areas of vulnerability. We provide 
the technical understanding of the current and evolving threat, such as 
those posed by biological pathogens and improvised nuclear or 
radiological weapons. We are providing cutting edge tools to better 
enable intelligence analysts to organize and query their data, and to 
better ``connect the dots''. We are developing decision tools to better 
understand the vulnerabilities and risks to our infrastructure, so that 
policy makers can efficiently allocate resources to its protection.
    The Department is very aware that our critical cyber infrastructure 
is an attractive target for our adversaries. DHS has created the 
National Cyber Security Division under its Information Analysis and 
Infrastructure Protection Directorate. NCSD operates around the clock 
to conduct cyberspace analysis, issue alerts and warnings and improve 
information sharing and stands ready to respond to major incidents and 
aid in national-level recovery efforts. S&T is, in coordination with 
IA&IP, creating a robust cybersecurity research and development 
activity aimed at better understanding our cyber vulnerabilities, and 
developing tools that make it easier to perform software patches, or 
detect the insider threat.

    National Laboratories, Federally Funded Research Centers and 
Universities
    National Labs
    The Science and Technology directorate has created the Homeland 
Security National Laboratory System. The System, which is comprised of 
laboratories across the nation, provides the Department with a vigorous 
internal research component. Directorate staff members work closely 
with personnel from each of the national laboratories to promote 
innovative homeland security solutions. S&T is presently exploring ways 
for the national laboratories to participate in HSARPA activities.

    Homeland Security Institute
    The Homeland Security Act requires that DHS establish a federally 
funded research and development center known as the Homeland Security 
Institute to assist the Office of the Secretary and the S&T Directorate 
in addressing important homeland security issues that require 
scientific, technical and analytical expertise. To start the process, 
DHS, working with the Army's U.S. Medical Research Acquisition Agency 
Activity (USAMRAA) issued an early notice on September 10 seeking 
expressions of interest and qualifications, which are due today, 
October 30. The results of this effort will assist DHS and USAMRAA in 
developing a major solicitation for this activity. Plans call for the 
staffing of the office to begin November 1 and the formal solicitation 
to be issued in December.
    Among other functions, the Homeland Security Institute may be 
tasked with designing metrics to evaluate the effectiveness of homeland 
security programs throughout the Federal government including the 
national laboratories.

    Universities
    Through the Office of Research and Development, DHS is contributing 
to a government-wide effort to build U.S. leadership in science and 
technology. The office is reaching out to the academic community in an 
effort to provide students with opportunities to pursue career paths in 
sectors of science and technology that are vital to our national 
security. Two examples of this are the Homeland Security Centers of 
Excellence program and our Scholars and Fellows program.
    With the Centers of Excellence program, the Department plans to 
establish a network of university-based Homeland Security centers, each 
with a different area of focus in research and development. The first 
Center will examine the nation's resiliency to various acts of 
terrorism, in terms of impact and consequences, using risk-based 
economic modeling. The Department's call for white papers regarding the 
initial Center drew over 70 responses. S&T narrowed the field to 12 
universities that submitted full proposals earlier this month and plan 
to announce the first Center of Excellence in late November.
    The Homeland Security Scholars and Fellows Program provide 
scholarships for undergraduate and graduate students pursuing degrees 
in areas that are already aligned with our mission. The first 100 
awardees of this program began their studies this fall. These men and 
women will study in areas such as life sciences, engineering, 
computers, information sciences, mathematics, physical sciences, social 
sciences and psychology.

    National Biodefense Analysis and Countermeasure Center
    The National Biodefense Analysis and Countermeasure Center (NBACC), 
based at Fort Detrick in Maryland, is the hub within homeland security 
for research and operational capabilities to anticipate, prevent, 
respond to, and recover from current and next-generation biological 
threats to the American people and our agricultural system. NBACC is 
dedicated to protecting human health and agriculture by advancing the 
scientific community's knowledge of potential bioterrorism. NBACC aims 
to achieve efficient interagency and private sector cooperation with a 
structure that integrates facilities and technical expertise in 
biodefense and involves Plum Island Animal Disease Center, national and 
DHS laboratories, universities, the private sector and other government 
agencies. Biodefense characterization, bioforensics and agricultural 
security are the key programmatic thrusts of NBACC that are executed 
through these five research and operations centers: Biothreat 
Assessment Support Center; Biodefense Knowledge Center; Bioforensics 
Analysis Center; Bio-Countermeasures Testing and Evaluation Center; and 
the Plum Island Animal Disease Center.

    Homeland Security Science and Technology Advisory Committee
    The Homeland Security Act required the S&T Directorate to put 
together a committee of 20 prominent individuals with expertise 
spanning the Directorate's activities. They are to act, in essence, as 
our board of directors, advising the Under Secretary on the best ways 
S&T can deliver to the American people the technology and cutting edge 
capabilities that are a fundamental strength in the war on terrorism. 
We have decided on the people we would like to serve on that Committee, 
and are contacting them now. I expect the Committee to meet for the 
first time early in December.
    Accomplishments
    While, the Science and Technology Directorate has organized itself, 
is rapidly staffing up, it also has been at work delivering capability. 
I would like to mention some examples of current accomplishments as 
well as capabilities that will be available within the next few months.
    Biological and Chemical Defense Programs:
        <bullet> The Biowatch program has been established and deployed 
        to numerous cities across the nation. The program, developed, 
        funded, and managed by the S&T Directorate, is executed in 
        cooperation with EPA and CDC. It employs environmental sampling 
        devices to quickly detect terrorist agents, such as anthrax, in 
        time to distribute life-saving pharmaceuticals to affected 
        citizens. The Science and Technology directorate is now 
        focusing its efforts on piloting the next generation of 
        environmental samplers which will reduce the amount of labor 
        required and response time needed for devices while keeping the 
        detection probability high and false alarm rates low.
        <bullet> The S&T Directorate and the Washington Metropolitan 
        Area Transit Authority (WMATA), recently completed PROTECT 
        (Program for Response Options and Technology Enhancements for 
        Chemical/Biological Terrorism). PROTECT, which is an 
        operational chemical agent detection and response capability 
        program, is deployed in more than six stations and operated by 
        the WMATA. Upon completion, the system will be totally owned 
        and operated by WMATA and expanded to approximately 20 
        stations. The information gleaned from PROTECT will have direct 
        applications to similar facility protection and response 
        efforts across the nation.
        <bullet> In June 2003, the Science and Technology directorate, 
        in coordination with the Department of Defense's Defense Threat 
        Reduction Agency, Department of Energy, and University of 
        Oklahoma sponsored a month-long atmospheric dispersion study in 
        Oklahoma City, OK. Nearly 150 scientists, engineers, and 
        student assistants were dedicated to this study, which tracked 
        the air movement of safe, non-toxic tracer gases in and around 
        city buildings. The resulting data is being used to enhance and 
        develop urban specific computer models that will allow 
        emergency management, law enforcement and other personnel to 
        train for and respond to potential chemical, biological, and 
        radiological terrorist attacks.

    Interoperability of Communications:
        <bullet> The Department is taking steps to boost the ability of 
        44,000 local, tribal and State entities and 100 federal 
        agencies engaged in public safety to communicate effectively 
        with one another, particularly during an emergency. SAFECOM is 
        a Federal umbrella program under S&T that is dedicated to 
        improving public safety response through enhanced interoperable 
        wireless communications. The goal is to enable public safety 
        agencies to talk across disciplines and jurisdictions via radio 
        communications systems, exchanging voice or data with one 
        another on demand and in real time. SAFECOM is providing seed 
        money for the Department of Justice's Integrated Wireless 
        Network program which will create interoperability among local, 
        State and Federal public safety agencies in 25 cities. In 
        addition, technical guidance for interoperable communications 
        that was developed under SAFECOM will be included in this 
        year's Office of Domestic Preparedness grants.

    Information Analysis and Infrastructure Protection Programs:
        <bullet> Analysts from S&T built and delivered a prototype 
        system to IAIP to perform Graphical Information System (GIS) 
        based computer assisted threat and vulnerability mapping of the 
        oil and gas infrastructure in the American Southwest. S&T is 
        also in the process of delivering to IAIP cutting edge 
        visualization, data searching, data correlation, and all-source 
        analytic aids to provide IAIP advanced analytic capabilities 
        integrated with vulnerability information.
        <bullet> The Nuclear Assessment Program is engaged in ongoing 
        assessments and analysis of communicated nuclear threats and 
        claims of illicit trafficking in nuclear materials. This 
        program also inaugurated a new capability to rapidly analyze 
        gamma and neutron spectroscopy in support of Customs and Border 
        Patrol officers to quickly resolve radiation anomalies at the 
        borders. This capability is in the process of being expanded, 
        through the National Biodefense Analysis and Countermeasures 
        Center, to the biological domain.

    Border and Transportation Security Programs:
        <bullet> The Science and Technology directorate has initiated 
        the Border Safe Integrated Feasibility Experiment. This 
        experiment creates an infrastructure in the Southwest United 
        States for data sharing between the Department's Border and 
        Transportation Security directorate and local and State law 
        enforcement officials. The resulting system will identify 
        individuals who have already entered our country, either 
        legally or not, and who engage in hostile behavior after 
        crossing the border. The system will particularly focus on 
        individuals who attempt to change their identity or borrow 
        someone else's identity.
        <bullet> S&T has deployed to sites in the New York metropolitan 
        area (tunnels, bridges, ports and airports) various nuclear 
        radiation technologies. This demonstration effort involves 
        transition of state of the art, new detection technologies 
        available at the National Labs to the field, the development of 
        operational concepts and technical reach back procedures, and 
        on-site alarm resolution. It will serve as a model for 
        deployment of these technologies to the interior of the Nation, 
        around major urban centers, and at ports and airports.

    Portable Air Defense Systems:
        <bullet> The Department of Homeland Security has developed and 
        submitted to Congress a program plan for countermeasures 
        against the shoulder-fired missile threat to commercial 
        aircraft, known as MAN-Portable Air Defense Systems (MANPADS). 
        Based on this report, the Science and Technology Directorate 
        established a program office to oversee the Department's 
        MANPADS efforts. These actions are aimed at leveraging existing 
        military research and development programs, and re-engineering 
        those capabilities so that they are consistent with airport 
        operations and commercial air carrier maintenance, support, and 
        logistics schemes.
        <bullet> In September, S&T released a solicitation announcing a 
        program to address the potential threat posed by MANPADS. The 
        solicitation is the first step in the Department's two-phase 
        systems development and demonstration program for anti-missile 
        devices for commercial aircraft. Phase I will provide an 
        analysis of the economic, manufacturing and maintenance issues 
        needed to support a system that will be effective in the 
        commercial aviation environment. Phase II will include 
        development of prototypes using existing technology which will 
        be subjected to a rigorous test and evaluation process. The 
        Department held an Industry Day in Washington, DC on October 15 
        to brief contractors about the program. White papers responding 
        to the counter-MANPADS program solicitation are currently being 
        reviewed. Respondents receiving favorable reviews will be 
        encouraged to submit full proposals.

    Maritime Security:
        <bullet> The Science and Technology directorate's Homeland 
        Security Advanced Research Projects Agency (HSARPA) has joined 
        with the U.S. Coast Guard to build a prototype integrated 
        maritime surveillance facility covering Port Everglades, Miami 
        and Key West. The $3.7 million, 24-month program will integrate 
        existing facilities and upgrade equipment to detect, track, and 
        identify vessel traffic around ports, in the near-shore zones 
        around ports, and over the horizon. This evolutionary testing 
        will provide an immediate coastal surveillance capability in a 
        high priority area; offer the U.S. Coast Guard and other 
        Departmental organizations the means to develop operational 
        concepts; and implement and test interoperability among 
        Homeland Security and Department of Defense systems and 
        networks.

    SAFETY Act:
        <bullet> On October 10, 2003, Secretary Ridge signed an interim 
        final rule implementing the Support Anti-Terrorism by Fostering 
        Effective Technologies (SAFETY) Act of 2002. The SAFETY Act is 
        designed to encourage the development and rapid deployment of 
        life-saving, anti-terrorism technologies by providing 
        manufacturers and sellers with limited liability risks. The 
        Department is now accepting applications for designation under 
        the Act.
        <bullet> In October, the Science and Technology directorate led 
        a series of nation-wide seminars (Dallas, Los Angeles, Atlanta, 
        Chicago and Washington) to introduce the process to implement 
        the SAFETY Act. The seminars provided general information about 
        the Act, introduced the pre-application process, and provided a 
        forum for questions about the Department's implementation 
        processes.
    Standards:
        <bullet> Staff members of the Science and Technology 
        directorate are working with the emergency responder community, 
        and other federal partners such as NIST, to develop standards. 
        Initial guidelines for radiation detection technology have 
        already been made available, with formal standards nearing 
        completion. Standards are also under development for detectors 
        of biological hazards. Guidelines have been published for 
        interoperable communications gear.
        <bullet> The Science and Technology directorate is working with 
        other Federal partners to develop a set of standards for 
        cleanup after a biological or radiation incident. By providing 
        states and localities with cleanup guidelines, potential 
        hazardous impacts can be significantly decreased.
    Mr. Chairman, Congresswoman Lofgren and Members of the 
Subcommittee, this concludes my prepared statement. I am happy to 
address any questions you may have.

    Mr. Thornberry. I would be happy to yield my time to the 
chairman of the full committee, if he would like to ask 
questions at this point.
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome again, Dr. Albright. Two of the things in your 
prepared testimony prompt me to ask for additional detail. One 
is the experiment that you have initiated for Border and 
Transportation Security. It is described in your written 
testimony briefly as the creation of an infrastructure in the 
Southwest for data-sharing between DHS and Border and 
Transportation Security Directorate on one hand, and State and 
local law enforcement on the other hand. The aim is to identify 
people who are doing bad things once they cross the border and 
perhaps in the process also swapping identities.
    How is this going to work? How is it working already?
    Mr. Albright. Well, it is set up in, I believe, a couple 
locations. I believe it is set up in southern Arizona, along 
the Arizona border, and it is also set up in southern 
California. And in essence, you have described the program to a 
T. What it is is that as people who--the State and local people 
who--the State and local people will tell our border people who 
they have a particular interest in. And as these people 
cross--.
    Mr. Cox. How do they do that? How do they tell DHS?
    Mr. Albright. Sir, I would have to get back to you on the 
actual details of that, but my understanding is they have 
basically created a watch list of individuals and names that 
they are interested in seeing cross the border. But the actual 
mechanical details of that I would have to get back to you on.
    Mr. Cox. And the brief description that you provided states 
that you are going to identify individuals who have already 
entered the country, either legally or not. Is there any 
coordination between the Border and Transportation Security 
Directorate and immigration?
    Mr. Albright. Sir, yes, I believe there is. We have been 
working--as we have been implementing this program, we have 
been working closely with the senior staff.
    Mr. Cox. What I mean to ask is in addition to inputs from 
State and local law enforcement, are we attempting to match up 
information that we have already collected within this 
Directorate and within DHS, for example, from US-VISIT or from 
anything else that we are running?
    Mr. Albright. Well, it is my understanding that the answer 
in general is, yes; that basically we are matching up 
information. To the degree that we have those databases 
integrated today, that information is being matched up. Of 
course, US-VISIT itself isn't up and running yet, so that 
hasn't been happening yet.
    Mr. Cox. But neither is this program. It is an experiment.
    Mr. Albright. No. Right now there are no experiments either 
from US-VISIT. There is obviously--in southern California, for 
example, there is a sentry program, but that only applies to 
preapproved individuals when they cross the border, and those 
tend to be fairly low-threat people.
    Mr. Cox. I wanted to ask you also about your efforts to 
focus on communications interoperability. SAFECOM is focused on 
both voice and data. You have also apparently been connected 
somehow fundingwise to DOJ and the 25 cities that they are 
working in. What exactly are we doing, apart from that DOJ 
project, in DHS on interoperability with SAFECOM?
    Mr. Albright. Okay. As you know, SAFECOM is a DHS-managed 
activity, but it is part of the--it is a Presidential 
management initiative that actually relies on contributions 
from across the Federal sector. So you are quite right, DOJ is 
a player in this, DOD is a player in this, although DHS is 
managing it and does do the bulk of the funding, I might add.
    Sort of the 25 cities that are within the public wireless 
network program within SAFECOM are the key testbeds for 
interoperability. However, we are also conducting additional 
activities. For example, what SAFECOM is doing is sort of its 
key role is developing technical standards for 
interoperability. And what we have recently done, and this is 
the first time this has happened, is the guidance associated 
with those standards has been included in the suite of grants 
that have been issued by ODP, by FEMA, and also by the COTS 
program. So what we are starting to see now is a uniform set of 
technical standards that are being issued across all the grants 
programs that DHS is involved with.
    Mr. Cox. In addition to a standard setting, is there any 
other aspect of the program?
    Mr. Albright. There is certainly a lot of issues. Clearly, 
there is--as you said, there are testbeds occurring in multiple 
cities that we are leveraging. There are a lot of issues, as 
you are, I am sure, aware of, especially with spectrum 
management that we are concerned about. There is technology 
issues. But those are the key--the two activities which are the 
testbeds and the standard setting are the key activities within 
the program.
    Mr. Cox. The last thing I want to ask you about is IP and 
our focus on, for example, the grid and recent demonstration of 
the problems with the New York blackout. How has the S&T 
Directorate collaborated with IA&IP to mitigate this 
vulnerability? How have you leveraged industry, if you have, to 
be a key partner in providing tools? What other tools are you 
bringing to bear?
    Mr. Albright. Well, there is a couple of things we have 
been doing with respect to the electrical blackout, the 
specifics of that. The first is--is, yes, in fact, we are--we 
have been engaging in industry to understand better these sorts 
of tools and predictive tools that may be available to--as you 
say, to help us do a better job of modeling the infrastructure 
and understanding where some of the key vulnerabilities are 
under the sets of circumstances that we saw occur in that 
particular blackout.
    We are also working closely with Bob Viskowsky and his 
people in the analysis of the data that has come out, that is 
coming out of this blackout. I mean, the blackout was a--it was 
obviously not a terrorism event; but from the perspective of 
the Department of Homeland Security, it is a wonderful 
opportunity to learn better some of the issues that are 
associated with, for example, interdependencies among 
infrastructures that so far have been primarily the subject of 
speculation, or, frankly, people sitting around a room kind of 
making lists up. This is an opportunity for us to actually put 
some facts on the table and understand that if an electrical 
power system goes out in Cincinnati, what effect it has, say, 
in Alabama, you know, on some industry because the supply chain 
got broken.
    So those kinds of analytical--that kind of analytical 
support is something we are providing directly to--as part of 
our systems engineering responsibilities, within the 
Department, to the IA&IP folks.
    Mr. Cox. I thank you very much.
    And I thank you, Mr. Chairman, on that last point. You 
know, whether it is transportation or food supplies or energy 
reactors, the threat that links all of these together is the 
our cybernetwork; and obviously focusing on the grid and on 
blackouts is vitally important and a big responsibility of this 
subcommittee.
    Mr. Thornberry. I thank the Chairman.
    Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I am wondering. We are about 6 months into this, and we are 
basically--this part of the Department was being built from 
scratch, so I am wondering if you can tell me how many full-
time employees the Directorate has on staff, and then how many 
additional people you have in detailees and contractors, and 
then what the final level will likely be.
    Mr. Albright. Okay. I will try to give you an answer that 
was good as of this morning.
    Ms. Lofgren. That would be fine.
    Mr. Albright. Because it changes rapidly.
    I believe that the number of full-time employees that we 
have on board in the S&T Directorate--within the headquarters 
activity, I think, is 110. It is roughly 110. We have on top of 
that another 30 or 40 contractors who are called SETA support 
contractors or detailees from other agencies. For example, we 
have a detailee from NIST who supports us. Actually we have a 
couple from NIST. So the net result is about 150, 160 people.
    Our full-time staffing level in terms of government 
employees, we expect to be fully staffed in the headquarters 
activity around 180 or so, with another additional 50 or 60 
contractors or detailees. We have got three AAAS fellows, you 
know, people like that on board.
    Ms. Lofgren. Along those lines, I have had some people 
express concern, and I don't know if it is--whether we should 
be concerned, so it is a question, about the depth or breadth 
of the science experience in the leadership. I believe you are 
a physicist, and Dr. McQueary is an engineer, and Dr. Bolka is 
a physicist, and Dr. McCarthy is a nuclear chemist, all of 
which, I mean, is pretty impressive. But there isn't anyone 
from the biology part of our science world. And is that 
something that we are going to address as we move forward? Do 
you think it needs to be addressed?
    Mr. Albright. We have--in terms of the senior leadership, 
you are quite right. But I have to tell you, I don't actually 
do a lot of physics in my job anymore. I guess I could have 
been glib and say that physicists think all science is a branch 
of physics.
    Ms. Lofgren. I have heard that.
    Mr. Albright. Right. But actually we have several people 
with biological training on board. I have a portfolio that is 
the bio--and I have got the chemical threat also in there as 
well, mainly because that is how I am staffed up right now. And 
I have got a number of--I have got a veterinary--I have got 
people who do veterinary research in that group. I have 
research people with biological degrees, immunologists, 
virologists. So we have access to that kind of talent where we 
need to have it.
    Ms. Lofgren. And you don't feel that it is a problem in 
terms of prioritizing the issues?
    Mr. Albright. Not at all.
    Ms. Lofgren. All right.
    I am interested in the--I call it ``SARPA,'' not HSARPA, 
because DARPA is easy, it flows from the tongue; ``SARPA'' 
flows from the tongue.
    Mr. Cox. If the gentlelady would yield. The H should be 
silent; don't you think?
    Ms. Lofgren. Yeah. It is ``SARPA.'' And that way we will 
live and flourish and grow.
    As I understand it, HSARPA is now focused on more near-
term, immediate type of needs. But DARPA really has been--that 
has been so successful over the years, and we have benefitted 
so much as a Nation from DARPA, really has a longer-range 
agenda. Do you see HSARPA morphing into that DARPA model down 
the road? And, if so, when? And, if not, how are we going to 
get those long-range functions accomplished?
    Mr. Albright. That is an excellent question, and I will try 
to call it ``SARPA'' from here on out. It is about the third 
thing we have tried, so we will try that.
    DARPA--first, let me say that HSARPA is always going to 
have a long-range research component, you know, a piece of it 
that is always looking at sort of crazy ideas, you know, things 
that, you know, no one else might be thinking about. And I 
certainly see that growing. But I think the name HSARPA is an 
unfortunate one for the Department of Homeland Security because 
it does bring to mind DARPA, and there are some very distinct 
differences between the environment which DARPA operates in and 
the environment that we operate in.
    If you look at DARPA, DARPA exists in an environment where 
there are already significant service acquisition activities 
within each of the military services. So, for example, for a 
lot of the directed research that you get in the military and 
the Pentagon, that directed research--if I needed a new surface 
air-to-air missile, I tend not to go to DARPA for that, I tend 
to go to Wright-Patterson for that, for example. If I need a 
new submarine, I don't go to DARPA for that typically. And the 
reason for that, of course, is you have these very robust 
evolutionary capabilities within the respective services as 
they fulfill their Title X responsibilities.
    So DARPA is in a sense a very needed but additional piece 
onto that infrastructure that allows the Pentagon to often--and 
focus solely on those kinds of things that don't pop up through 
the evolutionary acquisition chain.
    In the Homeland Security Department, in S&T, HSARPA is it. 
That is our acquisition chain. And so to the degree which we 
have to--so it becomes--what you are really saying is that 
there is a management challenge that we are always going to 
have, which is to make sure that we always reserve funds in our 
budget to assure that HSARPA does have the wherewithal to 
conduct that DARPA-like activity within its overall 
responsibilities. And the way we have chosen to do that is we 
have created a portfolio and a budget line that we call 
emerging threats, and this year in 2004 I believe it is around 
$25 million, and that money is there for exactly that purpose, 
to allow HSARPA, without any direction from anybody else, from 
any of the other portfolios, to basically have the Director go 
off and try out those things that we didn't think are good 
ideas, but he thinks are good ideas and ought to explore. And 
that is what that is all about.
    Mr. Albright. And that is what that is all about.
    Ms. Lofgren. I have only a moment left on my time, but we 
have asked a variety of witnesses, including the Secretary 
himself, whether we can provide technical assistance to the 
immigration function so that they can deploy technology; and I 
am so frustrated with this. I mean, in my other job as a member 
of the Immigration Subcommittee in Judiciary, we have been 
beating them up for years to deploy technology, and I do not 
see anything happening.
    Have you been able to assist them? Is that on your to-do 
list? Could you give us a report on it?
    Mr. Albright. That is very much on my to-do list, and the 
Secretary has put it on our to-do list.
    A lot of the activities, of course, are focused with the 
US-VISIT program that Mr. Cox was referring to earlier. There 
is a statutory requirement to deploy machine-readable documents 
at the border, so we have been looking closely with the US-
VISIT program and with the BTS people to help them sort through 
what needs to be done there.
    As I am sure you are well aware, the NIST has a very large 
activity associated mainly with setting standards for 
fingerprints. That is sort of what they tend to focus on, but 
on other areas, in particular in the areas associated with 
fusing different kinds of biometrics, we have been very 
actively engaged on that. In fact, we have a research program 
designed to explore those issues; we are working jointly with 
NIST to create a database that allows us to perform that work, 
and so, yes, we are pushing forward on that.
    Ms. Lofgren. Just one final remark: That sounds good, but 
they are still creating paper files in Immigration.
    Mr. Albright. I know, I know, and that is a separate issue 
entirely about whether or not--you are absolutely right. They 
create paper files and those paper files sit in archives in 
Pennsylvania for 100 years.
    That also is being worked, not so much by us, but by the 
people in Immigration, who do immigration, who are pushing for 
a modernization program along those lines.
    Mr. Thornberry. I thank the gentlelady for some excellent 
questions.
    The vice chairman of the subcommittee, Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman, and thank you, Dr. 
Albright, for being with us today. I will be very quick in my 
question to you so that it will allow you time before we go 
vote.
    I notice on page 7 of your report to us, Accomplishments, 
the Biowatch program. I would like to have you discuss that, 
but my tee-up is: You talk about going all around the country, 
being prepared for things that are ahead--SARS, anthrax, these 
sorts of things. Can you please tell me about those successes? 
And how prepared are we, how much better prepared are we than 
what we were for the things that we have been through; and in 
your opinion, what do we have to look forward to and what can 
this committee do--subcommittee and committee do to help you 
further?
    Mr. Albright. Thank you.
    Let me first talk about Biowatch.
    As you know, Biowatch is an environmental sampling program 
that we have in place in 31 cities across the country, and what 
we have done is deploy environmental samplers that suck air 
continuously and the results from that sampling are then taken 
to the CDC's Laboratory Response network labs for analysis; and 
this is done in full coordination with CDC and EPA, and the 
idea basically is to provide sufficient warning of, for 
example, an aerosolized anthrax attack in a time sufficient for 
us to be able to deploy the stockpile and to treat the people 
who have been affected.
    We also have significantly improved our plume modeling 
capabilities at the NARAC facility out at Lawrence Livermore 
National Laboratory, which allows us to understand where the 
contaminant plume has gone, to help us better focus our 
efforts; and we are working closely with HHS and CDC, not just 
on the Biowatch program, but also in the development of medical 
surveillance capabilities to also help warn us if an event has 
occurred and to help HHS and the National Institute for 
Infectious Diseases--Allergies and Infectious Diseases to help 
prioritize their program.
    Almost certainly the first procurement out of the bioshield 
program, should the bill be signed, would be the RPA vaccine 
for anthrax, which, if deployed and if we are able--certainly 
it would be deployed to first responders and may, if we can get 
it right, be deployed nationally. That will take anthrax off 
the table entirely.
    Mr. Sessions [Presiding.] I thank the gentleman for his 
response.
    Chairman Thornberry has left to go vote. We are going to 
continue on with this hearing for your being so gracious to 
stick with us when we were in trouble; and I will now yield the 
time to Mr.<greek-e>ndrews from New Jersey.
    Mr. Andrews. Thank you, Doctor, for your excellent 
testimony.
    On page 2, you talk about the directorate or the portfolio 
dedicated to developing standards for technology for homeland 
security, and Federal and State and local agencies and being 
smart buyers of homeland security technologies. I think this is 
a crucial issue. I think we were wise in decentralizing 
responsibilities for homeland security to those who know their 
turf best. But that strategy will work only if people do not 
buy junk, and I am very concerned that we have standards in 
place so that local buyers are given a lot of guidance into 
what they ought to buy and not buy.
    The specific question I have for you is whether you 
anticipate the standards that your group will develop being 
incorporated into grant contracts with local grantees, or will 
they simply be suggestions?
    Mr. Albright. We haven't gotten that far yet. So far, the 
thinking has been that it would be in the grant guidance, so we 
would tell people that this is something they certainly ought 
to do. I do not know if we will require it or not; and to be 
honest with you, I think it will matter a lot on what the 
equipment is. There is certainly a kind of equipment where, I 
would imagine, we might be very--pretty insistent on that, 
because when an alarm goes off, we are the ones who get called.
    Mr. Andrews. Right.
    Mr. Albright. On the other hand, for other sorts of things, 
we may just leave it up to the guidance.
    Mr. Andrews. I would strongly urge you to consider 
incorporating standards into the actual contract documents.
    You know, port authorities and airport authorities are 
creatures of local politics, and one of the benefits of that 
is, they are very responsive to their local community, but one 
of the risks is that a technology is going to be purchased 
because someone's brother-in-law is selling it or someone's 
contributor is developing it. It has been known to happen in 
American politics.
    I think it would be, at best, a waste of taxpayers' money 
and, at worst, a disaster if a technology that purports to 
protect against a biological or chemical attack fails because 
it doesn't meet standards. I think it is imperative that an 
operation like yours, that has the credibility and the 
scientific expertise, develop these standards and require they 
be applied in these contracts.
    The second point that I would make is about the role of the 
private sector, which I know you acknowledged in your written 
statement. You have a difficult balancing act, but I trust that 
you will be able to follow it; and that balancing act is, I 
think you need to reach out to the very best in the private, 
university and nonprofit sectors but do so in a way that 
doesn't prejudice your standard of development that benefits 
their particular proprietary product.
    It is an easy thing to say, but a hard thing to do.
    Have we given you the legal tools necessary for you to 
accomplish that mission, or do you need other legal tools?
    Mr. Albright. Right now, I think we are in great shape. The 
point you brought up is something we do talk about quite a bit, 
and that is--as you know, when you do consensus standards, you 
have to be very, very mindful of the fact that someone might be 
trying to, you know, wax the alleys. And so what we do is--we 
are dealing with some pretty experienced people out at NIST, 
and they understand the issues--and what we do is we 
certainly--it is very important that we get industry to buy 
into what we do, but at the end of the day, the standard is 
issued by us.
    Mr. Andrews. The reason I feel so passionately about the 
inclusion of the standards as a condition of the contract is, 
since September 11, I could do nothing but sit in my office and 
meet with people who purport to have homeland security 
technologies that will save the world.
    Now, many of them are very well-intentioned, eager people. 
Some of them are wackos, frankly, and I do not really have the 
technological expertise to distinguish between the two, and I 
do not think a lot of local decision-makers do either. I 
respect them and I respect their local prerogative, but I think 
it is very important that we not send Federal taxpayers' money 
to local people that would buy--in good faith, buy products and 
technologies that would not work.
    I thank you for your testimony.
    Mr. Sessions. I thank the gentleman.
    I would advise us, at this time, that despite what I 
previously said, we have now been given the information that 
there are a series of votes, at least one additional vote; and 
so, as a result of that, we would ask if you could please stand 
by.
    Mr. Albright. Sure, no problem.
    Mr. Sessions. Dr. Albright, it is our intent to come back 
in just a few minutes after the vote, so at this time, the 
subcommittee will be in recess.
    [Recess.]
    Mr. Thornberry. [Presiding.] We sure appreciate your 
flexibility. It is a little difficult for us to even figure out 
what is happening next, and I am not sure it is going to 
improve tremendously, but in the meantime, we will do the best 
we can.
    I yield to the distinguished gentleman from North Carolina 
at this point.
    Mr. Etheridge. Mr. Chairman, and to our witness, Dr. 
Albright I thank Dr. Albright for your flexibility today.
    We find ourselves a lot like you, where you talked earlier 
today--and let me return to that--as relates to HSARPA's 
mission to identify developing revolutionary technologies to 
satisfy the operational needs.
    I guess all of us have some major research capacity in our 
districts, but we have an awful lot in North Carolina as 
relates to the Research Triangle and our world class 
universities; they are very interested in the work that HSARPA 
is going to be doing. These universities, as you well know, 
have a long history of experience with rapid prototyping of new 
technologies, and that is what we are talking about and what 
you had talked about, and it is in your testimony.
    My question is: What is the director's intent for the $45 
million of additional research and development funds 
appropriated for rapid prototyping?
    And let me get my second one in so maybe you can combine 
your answers: How is the director planning to select products 
for rapid prototyping? And how will you go about producing and 
testing the prototyping?
    Mr. Albright. Okay.
    Okay. First, obviously, by rapid prototyping, what we mean 
is technologies that are commercial off-the-shelf or government 
off-the-shelf technologies that may have been used for some 
purpose or another mode and maybe need to be commercialized and 
perhaps adapted to homeland security purposes; and the way we 
have chosen to do that, up to now, has been to basically go to 
our user communities--EP&R, B&TS, IAIP--as well as within our 
own equities with S&T.
    As you know, we have a mission to be service advocates for 
the chem-bio-rad-nuke weapons of mass destruction issues. So 
what we do is, we ask ourselves what are the kinds of things we 
can have that would change the way we do business right now; 
and what we do is, we put together a broad agency announcement. 
It is very similar to a small business, innovative research 
kind of booklet, if you are familiar with those sorts of 
things. We publish that and we ask people to respond, and we 
try to have a very friendly way of doing that, where people 
will respond in stages.
    They send us maybe a chart with just a single sheet of 
paper and we encourage maybe some of those to respond with a 
white paper and maybe some of those to respond with a proposal; 
and this is all aimed at making sure that small businesses in 
particular do not have to make an extraordinary investment in 
running a full proposal before they get things in to us, and 
then we evaluate those for our immediate needs and fund them. 
That is how we do it.
    The advantage to doing it that way, of course, is that you 
have the buy-in from the very beginning with the user 
community, the people who actually are going to deploy this. We 
are asking them specifically, If we make this for you, will you 
deploy it? And if the answer comes back, no, then we tend to be 
not too interested in doing anything with it.
    So that is, in essence, the philosophy.
    With the extra $45 million that was appropriated to us, 
clearly we can do more of that. We did that with the $30 
million solicitation just last--just a few months ago. There 
are some additional, perhaps more focused solicitations that we 
could do in particular areas, and that is one of the options we 
are considering now.
    In some of the IAIP areas, in some of the EP&R areas in 
particular--and we haven't really settled down yet as to how we 
are going to spend that, and we are going to have a broad-based 
solicitation like we did before, but have more money in it, but 
we are going to do that for part of the money and then have 
more focused solicitations.
    The other thing we need to do, and we need to use a portion 
of that money for that, is to provide the rest of the 
clearinghouse function that you all asked for in Section 313 of 
the act; and that is to take some of that rapid prototyping 
capability and some of that commercial and off-the-shelf 
governmental technology and put it into a database that State 
and local people can address and look at and get some insights 
as to whether or not this is something they ought to be 
thinking about buying.
    Mr. Etheridge. Thank you.
    Let me move to the agroterrorism piece, because as you 
know, most of that has been delegated to the Department of 
Agriculture, but as you know, the DHS Science and Technology 
Directorate is supposed to address countermeasures for 
chemical, biological, radiological, nuclear, and cyber high-
explosive threats.
    Can you describe the research efforts that relate to 
agroterrorism on the agriculture side; and secondly, is DHS 
coordinating with the Department of Agriculture in this area; 
and finally, I hope you will share with us what DHS is doing to 
address the security problem that GAO has just released, as 
relates to Plum Island Animal Disease Center.
    It is important to a lot of States, but it is particularly 
important to this country with Plum Island. And you might want 
to talk about what Plum Island is, so I will not use all my 
time on that.
    Mr. Albright. Okay. Let me first talk about--let me first 
talk about our agricultural bioterrorism work.
    Most of our focus is on the catastrophic terrorism end of 
this and so, frankly, our focus has been on foot and mouth 
disease. That is the one that, if that gets out, that is--all 
the models pretty much show the same thing. There is no disease 
more infectious than foot and mouth disease, and so what we 
have been focused on has been to look at what USDA has been 
doing; and I will tell you, we are looking very closely with 
them.
    I spend a lot of time with their leadership and my staff 
spends quite a bit of time with them, as well, crafting out a 
joint strategy that addresses--their main concerns tend to be 
focused on natural outbreaks, and natural outbreaks have a 
certain set of protocols and issues attached to them that are 
fairly well understood, and they have led to a certain kind of 
infrastructure. For example, right now, if we have a foot and 
mouth disease sample, it always gets shipped back up to Plum 
Island for analysis because they are able to constrain the 
outbreak in the meantime, the local veterinary people can do 
that.
    If we had a delivered introduction, it is not at all clear 
you can do that, so that leads you to think about the 
development of new diagnostic tools that we can, in fact, put 
out into the field in the State veterinary facilities, so that 
they can actually perform a more robust identification of the 
disease in situ. So that is certainly an example of the sorts 
of things we are talking about.
    We obviously are also involved heavily with them on 
modeling and simulation activities, but basically what we are 
in the process of now--and this is actually, this is a report 
to Congress that is requested in early January--is crafting a 
joint strategy that allows them to continue to do the things 
they have been doing for a very long time and then allows us to 
address the infrastructure issues associated with terrorism 
attacks.
    With regard to Plum Island, well, as you know, we took it 
over, I believe it was June 1; and what we immediately did was, 
we did a site survey as you would when you are buying a house. 
For example, you go do a look, and we determined that the smart 
thing to do at that point was to do a 60-day study across the 
board of all the various issues associated with Plum. So we 
looked at infrastructure, we looked at compliance with the 
bioterrorism rules and regulations, we looked at security quite 
a bit, and we published that 60-day study, we completed it, and 
we are now undertaking remedial action on some of the top 
issues.
    The GAO report--we actually feel the GAO report was fairly 
accurate; I mean, it, I think, reflects the state of affairs 
when we took the facility over; and all I can tell you is that 
we are working very, very hard to bring a cultural change to 
the place--and I should tell you, it has been fairly successful 
so far, not completely, but fairly successful so far--to get 
people to think about the fact that, yeah, there is a 
bioterrorism act out there, and they do have to be cleared to 
handle some of the pathogens and we do have to be solicitous of 
what the rules and regulations are.
    We have also changed the site contractor as well, so we are 
doing the best we can to get that site on-line.
    Mr. Etheridge. Thank you, Dr. Albright.
    Mr. Chairman, as you well know, that Plum Island is an 
important place in this country, one of the few places that we 
can do the testing that needs to be done in this country, and 
it is critical that that security be there.
    Let me say, even though my time has expired, that we did a 
simulation in North Carolina, with the help of people here in 
Washington and the State folks, on hoof and mouth disease; and 
I can tell you, without exaggeration, it was frightening what 
it could do in this country.
    Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. I thank the gentleman and I have 
participated in such exercises as well.
    Let me kind of take, I guess, a next step from Mr. 
Etheridge's questions, Dr. Albright; I want to ask about 
coordination of R&D--first question, within the Department, and 
secondly, among departments. It is my understanding that there 
are various elements of the Department of Homeland Security 
that continue to have their own R&D budgets. TSA, for example, 
the Coast Guard, possibly FEMA, IP, perhaps.
    I would be interested to know what other elements of the 
Department have an R&D budget, and how it is that you or 
somebody fits all of those pieces together to make sure that we 
are not duplicating and we are doing the right thing.
    Mr. Albright. Okay. First, let me make a distinction 
between having an R&D budget and having R&D activities.
    There are a number of agencies with the Department that 
historically conducted research and development activities out 
of operations, of support funds, okay; so they are not 
identifiably R&D funds. And just the short answer to your 
question is, the agencies within DHS that do that--other than 
ourselves, of course--are, let's see, TSA, DCP, former Customs 
people, INS has a very small 400K budget, Coast Guard, security 
services, and IAIP picked up several activities as well when 
they were put together; and I believe that is the list, without 
having it in front of me.
    When we were planning the transition to the new department 
last year, the decision was made at the time that we would 
leave well enough alone in 2003, we would exert an oversight 
function--``we'' being S&T--in 2004, and the idea would be to 
integrate these capabilities within S&T in the 2005 time frame, 
and that was just a matter of what we thought was the logical 
thing, the expedient thing to do at the time.
    Secretary Ridge made it clear last summer that he expects 
that integration to occur; and as you are probably aware, in 
our appropriations language for the 2004 budget, there is a 
requirement that we present a combined R&D budget in 2005; and, 
in fact, we are due a report to Congress this December 15 on 
how we are going to actually do that. So there has been for 
some time an activity within our CFO shop that has been looking 
at identifying the R&D activities and then working toward some 
sort of integration.
    Now, there are a couple of caveats I should give you. One, 
of course, is the Coast Guard, which does have an R&D activity. 
The Homeland Security Act keeps them as an independent entity, 
so they would remain that way unless, of course, they 
specifically decided that they wanted to divest themselves of 
R&D activity and they got statutory relief.
    There are other issues, for example, the U.S. secret 
Service. There are certain R&D activities they do that it is 
not clear that it would make a lot of sense to actually, 
literally bring into our budget process. For example, the R&D 
on the President's limousine may not make sense.
    And so we are looking at all of that, so at least in terms 
of the internal piece of this, we expect to have a combined 
budget and have everything integrated within S&T, to the degree 
it makes sense to do so, certainly within the next couple of 
months.
    We certainly, as I said, have to have that report to the 
Congress in the next couple of months.
    Mr. Thornberry. Let me ask--and I understand, for example, 
the example you gave of the Secret Service. They have some 
unique responsibilities doing their own research in those 
areas, and it makes sense, but for example--and that may well 
be true with Coast Guard, too. But what is then the 
communication between the S&T Directorate and the Coast Guard 
for things that may well be overlapping, for example, related 
to port security in some way.
    Mr. Albright. Okay. What I have in--what I have done 
within--as we created the S&T Directorate, as I mentioned in 
the beginning, we have these portfolios; and several of these 
portfolios are focused on our CBRN missions, so I have, for 
example, someone who does bio-chem--I mentioned that earlier--
we have someone who does rad-nuke, and there were experts in 
that area.
    In order to make sure that we had this kind of 
coordination, we also created portfolios at the beginning of 
the--when the Department stood up for EP&R, for IA, for IP, and 
for BTS, and the person in those portfolios, their job--and we 
also have one for the Coast Guard and one for the Secret 
Service--their job is to make sure that we understand the R&D 
needs associated with those particular entities. It is their 
job to work with the user community to make sure that we know 
what is going on over there, and that they know what is going 
on over here, and frankly, so that we can help them out. 
Because, as you know, for a lot of these agencies, their R&D 
efforts are sitting in an environment where they are constantly 
competing for operations and support dollars, and, therefore, 
they have never had the kind of investment in long-range R&D 
that, frankly, their missions probably demand that they do 
have.
    And so what we took on was also the idea and we submitted 
this in the President's budget to, in fact, enhance those 
activities for Coast Guard, for example, for Secret Service, to 
enable them to do some of those things that might be 3 or 4 
years out, that maybe we would never have budgeted for. The 
people who staff these positions tend to be detailees of the 
home organization, so they understand the culture and who to 
talk to and that sort of thing.
    Mr. Thornberry. That is helpful.
    If, at some point, you see an impediment in the statute to 
that coordination, I trust you will tell us, because that is 
something, obviously, that we are interested in.
    Now, let me get to Mr. Etheridge's point: How do you 
coordinate with other departments, for example, Agriculture, on 
some of these diseases--but there are a lot of others, too.
    Some of the information, or estimates, we have is that 
homeland security R&D is about one-third of that conducted by 
the Federal Government as a whole; so how do you do that and 
how is that working at this point?
    Mr. Albright. Okay. There are a couple of ways it happens.
    The first and the simplest to explain is, there are formal 
processes that exist for interagency coordination. The White 
House has a couple of activities that do that. One is, the 
Office of Science and Technology Policy runs something called 
the National Science and Technology Council. It is a Cabinet 
level post that actually reports to the President and its 
primary job is to, in fact, in a variety of areas, to ensure 
coordination, not just in homeland security, of course, but 
across the spectrum of science and technology activities in the 
Federal Government.
    Jack Marburger, over at OSTP, has been extraordinarily 
active in the homeland security arena; in fact, he--you know, 
before the Department stood up, I think the nearest thing we 
had to a homeland security science and technology office was 
OSTP; and so he has created several working groups that 
formalize this kind of interaction in the homeland security 
arena.
    I happen--Chuck McQueary actually cochairs that with Mike 
Wynne, over in the Pentagon, and they have a number of working 
groups which I am heavily involved in. And so there is a formal 
structure.
    There is also a similar structure within the Homeland 
Security Council in a few specific areas, but perhaps more 
importantly, there is an informal mechanism, and that is that 
we have, for example, MOUs with USDA that are formal.
    We have MOUs with HHS that establish working relationships 
that are often required by statute; for example, USDA, we have 
a statutory relationship that comes about because of the Plum 
Island language that was in the bill. The HHS, we clearly have 
statutory responsibilities.
    We also have responsibilities that are implied with places 
like NIST, we created MOUs with them.
    There are also informal relationships. I happen to know all 
the players, and we make it our business to know each other. 
And Chuck McQueary, we spend time every other month over at the 
Pentagon; and we have shared with them our plans, they share 
with us their plans, and then we try to coordinate in that 
manner.
    But having said that, can I guarantee there will never be 
any duplication? I cannot tell you that.
    Mr. Thornberry. But at this stage, you feel pretty good 
about the level of coordination, particularly at this stage of 
development of the Department and your Directorate?
    Mr. Albright. Absolutely.
    Mr. Thornberry. All right.
    Let me turn to a slightly different question, but I think 
one that is very important, and that is the issue of metrics.
    How do we measure whether we are improving, or not?
    Obviously, this is something that you have to worry about 
to run your section of the Department. It is also something we 
have to worry about as we try to oversee the work of the 
Department, but also evaluate how taxpayer dollars are being 
spent.
    It seems to me that particularly in the R&D world, 
measuring progress is a very difficult thing, so I am very--I 
would be very interested in suggestions you have for us and, of 
course, your own management on what are the sorts of ways that 
we can measure progress and advancement in homeland security 
R&D.
    Mr. Albright. That is a really interesting question.
    Metrics, first of all, applied to the homeland security 
enterprise, writ large, are extraordinarily difficult to come 
up with. If you look at what our measures of effectiveness are, 
they tend to start with the words ``prevent,'' ``protect,'' and 
so you are proving a negative in a sense. How do you know that 
something hasn't happened? How is that a measure of success?
    So it is extraordinarily difficult for homeland security as 
a whole; and as you correctly pointed out, research and 
development metrics are something the Federal Government has 
been wrestling with for a very long time.
    There are ways to measure performance that are not 
particularly satisfying, but are perhaps better than nothing. 
And the first one I would offer up is--in some areas, for 
example, we can just count things; so, for example, we can say 
that we are going to issue standards, three sets of standards, 
standards in three areas by the end of fiscal year 2005, so we 
can count how many standards we have done.
    The problem with that, of course, is that you start getting 
into counting games and what do you mean by a ``count'' and 
those sort of things.
    I think the more preferred way to do it is to actually show 
our detailed program plans to Congress, which I like to do, and 
to show you the milestones we expect to achieve, both 
programmatic and technical in terms of performance, and when we 
expect to achieve them; and then I think we ought to be held 
accountable to those milestones. If I tell you we are going to 
develop a detector with this kind of performance and this kind 
of operation by a certain date and here is the milestone and we 
are going to demonstrate it, I think you have every right and 
should ask us, Did you, in fact, take it out to the field and 
demonstrate it; and what did you find out. And that is sort of 
the way you do it, because what that does is, it forces on us a 
very disciplined developmental process.
    I think it is good for us that we have those kinds of way-
points put in our path; and at the same time, I think it helps 
you feel some sense that the dollars that we are spending--
which, after all, for those particular purposes, we are saying 
that is why we are spending them in the first place--that, in 
fact, some kind of progress is being made.
    Mr. Thornberry. I think that is a good point.
    I guess the only thing I would say is, I do not want you to 
be reluctant to set milestones and goals for fear of what 
happens from us if you do not meet them. I mean, 
understandably, there are things that happen, particularly in 
your line of work, but as long as we have that communication 
going back and forth, it seems to me it ought to work. But I 
think that is very helpful.
    Does the gentleman from North Carolina wish to interject on 
this?
    Mr. Etheridge. Thank you, Mr. Chairman, I would.
    As it relates to this--and I think it is a great question--
how does the Department determine the distribution of funds 
among the various R&D portfolios? And I know that has got to be 
difficult, as you are getting--going up and in that line, in 
the 2004 Homeland Security Appropriations Act, bio-
countermeasures receive roughly four times the S&T funding as 
chemical countermeasures.
    Is that because the Department views the bio-threat is four 
times as great, or is it based on threat? How do we determine 
the threat and the distribution?
    Mr. Albright. That is an excellent question, and that is--
it depends on a number of things, and obviously threat is one 
of them.
    You know, from our perspective, the threat from an anthrax 
attack or from a nuclear weapon is far greater than the threat 
from other potential things that you could imagine. So threat 
clearly determines a portion of our investment.
    But the way we operate is--we tend to do bottoms-up 
budgeting, so to give you a sense of what the process is, we 
look at, first, the threat, and we ask ourselves, you know, 
what are the threats that are, you know, for example, easy to 
do by the bad guys and yet very catastrophic. That is probably 
where you want to put most of your money, okay?
    So we tend to sort the threat. And then we ask ourselves, 
what are the activities, what are the capabilities we need to 
counteract that kind of threat; and we write that down, we 
create a strategic plan, and we, in fact, publish that. And 
then we ask ourselves, what program do we need to, in fact, 
execute that planning guidance, okay?
    And that is, then, where the budget comes in and the budget 
constraints come in, and we sort from there. So it is a 
bottoms-up sort of process, and it is not correct to say that, 
for example, the fact that I have four times the amount in bio 
that I have in chem, that that is necessarily some reflection 
on the relative priorities, although it may be. Partially, that 
is true, but it is also driven by what is the right investment 
we need to make in each of these areas to achieve some level of 
performance.
    What you find, for example, is, in some areas, like the bio 
area, there has been almost no investment in the things we need 
to invest in, while in the chemical area, to use your example, 
there has been a lot of investment made by the Defense 
Department over time and we are further along.
    So that is how it is done, in effect.
    Mr. Etheridge. In light of that, the Technical Working 
Group has conducted a number of solicitations since 9/11 for 
homeland security technology proposals for those solicitations 
and especially the ones that were jointly done by DHS.
    How many projects have been funded, if you know, and how 
many technologies have been fielded?
    Mr. Albright. Okay. The answer is, I do not know right now. 
There were several thousand proposals that we got.
    Mr. Etheridge. If you can just get that to us later, that 
will be fine.
    Mr. Albright. I will, but I do know the contracts are being 
let as vetted we speak.
    Mr. Etheridge. Thank you.
    Mr. Thornberry. Thank you.
    And before I forget it, without objection, all members will 
have the opportunity to submit written questions to Dr. 
Albright, and so we may want to follow up on some of these 
things, as well as, of course, present opening statements.
    Mr. Thornberry. Let me follow up on that point, because it 
is, I think, a matter of interest to all Members of Congress, 
because we all have somebody in our district who wants to sell 
something. The staff had presented me with what is--as I 
understand, is an automated response that vendors are getting 
from the Department, which basically says, Go look at the 
Federal regulations and come back to us.
    I guess I would be interested in your assessment of, number 
one, how this interaction with the private sector is going. And 
it is a very tough thing, it seems to me, because you could use 
all of your 150 people doing nothing but meeting with folks all 
day, and there may not be any of those meetings that really 
help the country be safer.
    The other side of it is, there may be a jewel out there, 
and that is part of the risk I know you take; but I would be 
interested in how you think that communication, that contact 
with the private sector, is going.
    I would also be interested--I think it related in TSWG and 
how their activities are going. Do you foresee them being a 
primary screening mechanism for the indefinite future?
    Mr. Albright. Okay. Let me--there are several questions in 
there.
    Let me start with what our process is in dealing with the 
private sector, because that is an important point.
    When we first started up the Science and Technology 
Directorate, there was no process within the Department at all; 
and so, as you recall from the May testimony, Dr. McQueary 
actually at that point announced, I believe, the 
science.technology e-mail site; and so we stood that up. And 
that was the--and that has gotten a lot of press, so we have 
got a lot of people sending material into that site.
    And what we created was a process at our end for dealing 
with that, where we look at the submissions that come into that 
site--and they run the gamut, including Nigerian financial 
scams--we get it all in there, and we look at the kind of 
material we get; and truth be told, some of this--some think 
the queries we get there have very little detail associated 
with them. There is not much there to do an evaluation. Even if 
we had the time to do it, we cannot deal with anything.
    So what we do is, we send them back actually a nice letter, 
telling them that there is not sufficient information here, 
that we will hold the application for what they have sent to 
us, and if they want to, you know, provide more detail, we will 
be happy--they should look at other samples for what a detailed 
solicitation would look like.
    And, by the way, everything I am talking about is 
unsolicited proposals, okay? If somebody brings something in 
that does have sufficient detail, we take them over to TSWG, 
okay, because they have this evaluative process in place, these 
groups of people who can examine and evaluate these things. 
They have several working groups set up. And we will inform the 
person who sent that thing to us that that is what we are 
doing, we are sending it to TSWG; and furthermore, we have a 
process whereby we get back to them in 30 days.
    So that is the process we have set up in the Science and 
Technology Directorate.
    So, of course, what has happened since then is, a lot of 
other offices, CIO shop, for example, within DHS, they too are 
getting hit by a lot of inquiries from the private sector, and 
they have created their own processes. And I guess what I am 
hearing from you is that we probably ought to work with those 
guys to try to get them the kind of robust process we have 
within the S&T Directorate, so that the private sector can feel 
they are better engaged.
    How are we interacting with the private sector? I think--as 
I said, I think we have as good a process as you can have that 
balances our ability to get our jobs done while at the same 
time scouting and making sure that those gems do not just fall 
through the cracks in the pavement.
    The--will the TSWG be our continued evaluative group? That 
is actually an open question. They may, but you have to 
remember, when the TSWG was formed up, it was a DOD-State 
entity that included Secret Service, Customs, TSA; and you sort 
of look at the list of agencies that comprise the TSWG, and 
about 90 percent of them are in the Department of Homeland 
Security. So one of the questions we are asking ourselves is 
whether or not we just want to go ahead and create, you know, 
our own process and, you know, work--synergize with TSWG, but 
at the same time not necessarily trouble DOD, for example, and 
trouble our working groups with, you know, technologies that 
have to do with new tank armor or things like that.
    Mr. Thornberry. You may have referred to this earlier, but 
have you sent people over to places like DARPA, to see what 
they have, what plans they have that may be of interest for the 
Department?
    Mr. Albright. Well, yes.
    Mr. Thornberry. Or are you waiting for them to come and 
say, look what we got for you.
    Mr. Albright. Well, there has been a little bit of that. I 
mean, I came from DARPA, as you know. That was a few years ago. 
As a matter of fact, our program managers within HSARPA have 
recently departed DARPA, very recently in many cases, so we are 
fairly familiar with what goes on over at DARPA.
    Our interaction with the Pentagon, though, is through Paul 
McHale's office almost exclusively, so to the degree--I would 
say there is no formal interaction between us and DARPA, but we 
are--again, we are aware of it, but it is all through informal 
mechanisms.
    Mr. Thornberry. Well, I am a little concerned, in that, for 
example, I have been told--and I do not know, and I need to go 
ask--that DARPA has done some work on designing a 21st century 
airport security system, using primarily off-the-shelf 
technology. I do not know if that is true.
    I would be interested in it, but there may--not only DARPA, 
of course, but the Federal laboratories and other places with 
which you are very familiar. Sometimes it is kind of hard to 
root around and find some things, but there are some jewels out 
there, and I know none of us want them to fall through the 
cracks in the pavement.
    Mr. Albright. Well, I think if there is a new airport 
security system at DARPA, I will definitely look into that, 
because that is an area obviously of concern to the Department 
and to S&T.
    As I said, there are a lot of informal mechanisms we have 
for dealing with DARPA in particular. There are a lot of formal 
mechanisms as well that deal with the Federal laboratories, and 
I think I mentioned those earlier.
    We do work through Paul McHale in the Pentagon, and to the 
degree they believe the things in DARPA over at Dale Klein's 
shop, over at DTRA, for example, they certainly let us know.
    To date, there hasn't--I have got--the airport security one 
is a new one on me, so--
    Mr. Thornberry. I think it is something maybe for both of 
us to go check out--
    Mr. Albright. Okay.
    Mr. Thornberry.--and I hope there is something useful for 
us there.
    Dr. Albright, I think we continue to have a vote on the 
floor. I think, in light of our comings and goings, maybe we 
will end here.
    Mr. Albright. Okay.
    Mr. Thornberry. But I do appreciate your willingness to 
provide written answers to further questions that members of 
the subcommittee may have, and I am very grateful for all of 
the communication which you and your folks have had with 
members of the subcommittee staff and members.
    In addition to that, I want to thank the Budget Committee 
for letting us use their committee room and the staff for 
helping us hold this hearing.
    Thank you. We will look forward to our continued work 
together to try to help the country be safer, okay?
    Mr. Albright. Thank you.
    [Whereupon, at 5:42 p.m., the committee was adjourned.]

                               APPENDIX 

               Material Submitted for the Hearing Record

                 QUESTIONS AND RESPONSES FOR THE RECORD

  QUESTIONS SUBMITTED TO DR. PENROSE ALBRIGHT FROM THE HONORABLE JIM 
                                 TURNER

    1. Dr. Albright, you testified that the directorate makes resource 
allocations based on an assessment of the threat, and in particular the 
potential impact, likelihood of success, and ease of carrying out 
different terrorist attacks. What input do you receive from the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
in carrying out this assessment? Are you communicating with IAIP 
officials to get better tailored analyses?
Response: We are working closely at multiple levels with the IAIP 
Directorate to understand threats and vulnerabilities. This is a 
particularly strong connection because S&T people and capabilities are 
engaged in active support of the assessment functions of the Assistant 
Secretary for Information Analysis, particularly with regard to 
technical issues surrounding the threat. A joint project with the 
Assistant Secretary for Information Analysis is currently underway to 
have intelligence community resources at the national laboratories 
assess the weapons of mass destruction (WMD) capabilities of known 
terrorist organizations, and to identify information gaps that can help 
prioritize future analysis and information gathering. In another 
example, S&T was guided on longer term RDT&E priorities in counter-
Bioterrorism RDT&E by working with IAIP staff in a recent workshop to 
determine gaps in counter-BW capabilities.

In addition, regular senior level interactions at the under secretary 
and chief of staff level have provided assurance since the Department's 
formation that threat and vulnerability related priorities are shared 
across DHS directorates.

    2. Please provide details on the results of the Broad Agency 
Announcements and other solicitations conducted since 9/11 as regards 
homeland security and combating terrorism technologies? In particular, 
please indicate the number of proposals submitted to the solicitations, 
the number of requests from DHS and TSWG for more detailed proposals, 
the number of proposals ultimately accepted, the number and amounts of 
funds distributed to accepted proposals, and the number and names of 
technologies that have been fielded as a result of these processes.
Response: May 14, 2003: The Department and the Technical Support 
Working Group (TSWG) issued the first Department of Homeland Security 
(DHS) S&T Broad Agency Announcement (BAA), entitled ``Combating 
Terrorism Technology Support Office,'' DAAD 05-03-T-0024, closed June 
13, 2003. This BAA listed 50 requirements, sought quad-chart 
submissions in the first phase, and will down-select to winning 
proposals. There were 3,344 quad chart responses received. There were 
237 white papers requested from those submitting quad charts. As of 20 
November, 2003, 93 white papers have been rejected; 34 have been 
reviewed favorably and full proposals requested. The remaining 110 are 
still under evaluation. Efforts will be awarded to both private 
companies and government laboratories. DHS provided $30M to TSWG for 
awards in FY-03 and anticipates that another $30M will be available in 
FY-04 for this BAA. These funds are sufficient to fund the proposals 
already accepted and those which may be selected as the evaluation 
continues.

September 23, 2003: First Research Announcement (RA-03-01) for the 
Homeland Security Advanced Research Projects Agency (HSARPA) was 
issued, entitled ``Detection Systems for Biological and Chemical 
Countermeasures Program.'' Its purpose is to develop, field-test, and 
transition to commercial production the next generation of biological 
and chemical detectors and systems. It addresses two areas in 
biological countermeasures and three areas in chemical countermeasures. 
The white paper deadline was October 24, 2003, and, by that deadline, 
518 white papers were received. They are now entrained in an evaluation 
process that is on schedule to conclude by November 21, 2003. Authors 
of selected white papers (and other sponsors wishing to submit full 
proposals) will be asked to submit full proposals, which will be due 
December 19, 2003. Following evaluation of all proposals received, 
HSARPA expects to enter negotiations with selected proposers by the end 
of January 2004. The total amount of funds committed to this effort 
depends entirely on the number and cost of the proposals selected for 
execution.

October 3, 2003: The S&T Directorate released a solicitation (HSSCST-
04-R-AR001) requesting white papers and proposals for an aggressive 
two-phase Systems Development and Demonstration (SD&D) program for 
antimissile devices for commercial aircraft. DHS will investigate 
directed infrared countermeasures (DIRCM) and other technologies to 
provide protection against man-portable air defense systems (MANPADS). 
DHS does not intend for this program to develop new technologies, but 
rather to migrate existing technologies to the commercial airline 
industry. Twenty-four white papers were received and evaluated. Five 
teams have been asked to submit full proposals and each has been given 
a date during the week of December 8, 2003 to present their oral 
submissions. The Government anticipates selecting at least two teams 
for negotiation and award in early January 2004. The total amount of 
funds committed to this effort depends entirely on the number and cost 
of the proposals selected for execution.

November 13, 2003: HSARPA issued a Small Business Innovation Research 
(SBIR) Program Solicitation. The purpose of this solicitation is to 
invite small businesses to submit innovative research proposals that 
address eight high priority DHS requirements:
        <bullet> New system/ technologies to detect low vapor pressure 
        chemicals (e.g., Toxic Industrial Chemicals)
        <bullet> Chem-bio sensors employing novel receptor scaffolds
        <bullet> Advanced low cost aerosol collectors for surveillance 
        sensors and personal monitoring
        <bullet> Computer modeling tool for vulnerability assessment of 
        US infrastructure
        <bullet> Marine asset tag tracking system
        <bullet> AIS tracking and collision avoidance equipment for 
        small boats
        <bullet> Ship compartment inspection device
        <bullet> Advanced secure supervisory control and data 
        acquisition (SCADA) and related distributed control systems.
The deadline for receipt of proposals is December 15, 2003. The total 
amount of funds committed to this effort depends entirely on the number 
and cost of the proposals selected for execution.

November 13, 2003: HSARPA released a Request for Information (RFI) on 
Radiological and Nuclear Countermeasures System Architectures Analysis 
(RNCSAA) Draft Statement of Work for comment (DSWC 04-01). The RFI 
lists four tasks:
        <bullet> Develop a framework for evaluating system 
        architectures
        <bullet> Study systems effectiveness and vulnerability studies
        <bullet> Define and evaluate novel architectures, and 
        approaches for countermeasures
        <bullet> Identify additional studies to support these tasks.
This RFI will lead directly to a future solicitation based on the 
responses to this RFI and related topics.

To date, no technologies resulting from these solicitations have been 
fielded.

    3. What was the level of interest generated by DHS' solicitation 
for comments on the Homeland Security Institute RFP? What do you see as 
the impact on the applicant pool of the three-year sunset provision, 
and do you have any recommendations for changing that provision? When 
will the Department issue a final RFP for the Institute, and when will 
a decision be made on awarding a contract? Considering that the 
Institute is required to have expertise beyond the jurisdiction of the 
S&T Directorate, how will you ensure that the Institute meets the 
requirements set forth in the law?

What was the level of interest generated by DHS? solicitation for 
comments on the Homeland Security Institute RFP?
Response: The interest from all sectors--not-for-profit organizations, 
for-profit companies, universities, consortia, and single 
investigators--was high. Approximately 70 responses were received.

    What do you see as the impact on the applicant pool of the three-
year sunset provision, and do you have any recommendations for changing 
that provision?
Response: Sec 312 of the Act provides for the formation of the Homeland 
Security Institute, with the capability for systems analysis, risk 
analysis and modeling and simulation, policy analysis, support for 
exercises and simulations, and other activities that are traditionally 
performed by an FFRDC. These capabilities are in fact enduring needs 
for the Department that require specialized and dedicated staff focused 
on the broad range of issues confronting homeland security and the 
Department. The three year sunset clause, unfortunately, serves to 
discourage the acquisition of permanent staff, and the investment in 
resources, an organization would need to make to compete for and 
conduct such an enterprise. It is worth noting that Sec 305 of the Act 
provides also for the establishment of FFRDCs, without the three year 
sunset clause. Several of the more qualified potential bidders have 
informally indicated that they have no interest in pursuing this 
contract if the three-year sunset provision is not removed. They view 
it as impractical to ask talented scientists and engineers and other 
analysts to pursue an alternative career path that will only last for a 
year or two. They also view it as bad business strategy to commit their 
own organization's resources (facilities, infrastructure, etc.) for 
such a short-lived commitment. In light of this, I would be happy to 
work with Congress to (1) remove this sunset provision entirely and 
allow the FFRDC to function according to normal laws and regulations 
that apply to FFRDCs, or (2) extend the sunset provision to 10 years, 
or (3) to put into effect a solution that allows the Department to 
overcome the difficulties created by this provision.

    When will the Department issue a final RFP for the Institute, and 
when will a decision be made on awarding a contract?Sec. 
Response: The RFP is scheduled to be released in early December, with a 
subsequent award in late spring/early summer.

Considering that the Institute is required to have expertise beyond the 
jurisdiction of the S&T Directorate, how will you ensure that the 
Institute meets the requirements set forth in the law?
Response: The ultimate sponsor of the Institute is Secretary Ridge and, 
therefore, it is viewed as a resource that will be available to the 
Department as a whole, although it will be managed by the S&T 
Directorate. The core functions--a necessary component of any FFRDC--
have been carefully crafted to ensure capabilities that extend beyond 
just science and technology (and meet the legislative requirements). 
This will be one of the criteria for evaluating the proposals.

    4. The PREPARE Act (H.R. 3158) has a provision that would require 
the Directorate to within six months identify first responder equipment 
and training standards that don't currently exist, and work with the 
standards and first responder communities to complete work on those 
standards within a year after that. What are the Department's plans in 
this regard?
Response: The S&T Standards Portfolio is working with the emergency 
responder organizations--Memorial Institute for Prevention of Terrorism 
(MIPT), and National Technology Transfer Center (NTTC), as well as the 
InterAgency Board for Equipment Standardization (IAB) which has a co-
chair from the emergency responder community--to identify needs for 
standards of the emergency responders. The Standards Portfolio is also 
working with the Homeland Security Standards Panel (HSSP), which has 
been set up by the American National Standards Institute (ANSI), to 
coordinate development of homeland security standards among 280 
standards development organizations. Work has been initiated with the 
Institute of Electrical and Electronics Engineers (IEEE) on radiation 
detector standards, with AOAC International on standards for anthrax 
detectors, with the National Institute for Occupational Safety and 
Health (NIOSH) on personal protective equipment and with ANSI on 
development of a database of homeland security related standards. The 
Standards Portfolio is engaged with the principal Departmental elements 
involved in training for emergency responders--the Federal Emergency 
Management Agency (FEMA), the Office of Domestic Preparedness (ODP), 
and the Coast Guard--to develop common metrics for curricula for 
emergency responder training.

    5. The Project Bioshield plan commits NIH with doing the basic 
research that is necessary and obligates BioShield funds to purchase 
the final product from the private sector. What is the Science and 
Technology Directorates role in conducting the middle part of 
countermeasure development where research findings are converted to 
effective medicines. In light of the Homeland Security Act requirements 
that DHS and HHS will collaborate on setting priorities, goals, 
objectives, and policies and develop a coordinated strategy for R&D 
relating to medical countermeasures for terrorist threats:
    How often does Directorate staff meet with NIH officials to discuss 
their research and development efforts? Who attends these meetings?
Response: In accordance with Section 302 (4) of the Homeland Security 
Act of 2002, Public Law 107-296, the Secretary, acting through the 
Under Secretary of Science and Technology, ``shall have the 
responsibility for conducting basic and applied research, development, 
demonstration, testing, and evaluation activities that are relevant to 
any or all elements of the Department, through both intramural and 
extramural programs, except that such responsibility does not extend to 
human health-related research and development activities.''

Accordingly, the S&T Directorate, in coordination with other DHS 
Directorates, identifies biosecurity threats and conducts vulnerability 
assessments as a basis for defining medical countermeasure priorities.

The Under Secretary for S&T, or his designees, participates on the 
Weapons of Mass Destruction Medical Countermeasures Working Group, co-
chaired by the Department of Health and Human Services (HHS) Office of 
the Assistant Secretary for Public Health Emergency and Response 
(OASPHEP) and the Department of Defense, Assistant Secretary, Health 
Affairs. Three subgroups focus on Research and Development, 
Acquisition, and Requirements. The Assistant Secretary for S&T co-
chairs the Acquisition Subgroup. The working group and subgroups 
provide the organizational structure to assure effective inter-agency 
coordination in setting medical countermeasure priorities.

    In bio, chemical, and radiological defense, NIH have expanded their 
R&D effort to include middle and late stage development of medical 
products. Is the S+T directorate consulted in these programs? How is 
the directorate updated on what specific countermeasures NIH is 
actively developing and the progress of that research?
Response: In addition to the formal working groups and subgroups 
described in the response to the question above, the Under Secretary 
for S&T, or his designees, also participates in monthly risk management 
meetings coordinated and chaired by the HHS/OASPHEP. Representatives 
from the National Institute of Allergy and Infectious Diseases (NIH/
NIAID), the Centers of Disease Control and Prevention (CDC), the Food 
and Drug Administration (FDA), as well as DHS/EP&R and S&T are active 
participants. Meetings are held currently on the subject of anthrax, 
smallpox and Botulinum toxin medical preparedness. These risk 
management meetings provide a forum for status reports on the progress 
and development of priority medical countermeasures.

    How is threat assessment or the needs of first responders, as 
determined by DHS, being integrated into prioritization for medical 
countermeasures R&D?
Response: The S&T Directorate has chartered and is working very closely 
with the HHS, as one of a number of federal organizations, to conduct 
of technical threat assessments of current and future biothreat agents 
and to develop processes to conduct systematic vulnerability 
assessments. The results of periodic threat and vulnerability 
assessments will be communicated to the Weapons of Mass Destruction 
Medical Countermeasures Working Group and additional agencies as 
appropriate.

    I understand that Dr. Michael Ascher is the Directorate's senior 
medical advisor. What is his role? To whom does he report?
Response: Dr. Michael Ascher was the Senior Medical Advisor for the 
Biological Countermeasures Portfolio until his return to California 
this summer. Dr. Peter Estacio is in the process of joining us to fill 
this role. The Senior Medical Advisor reports directly to the Portfolio 
Manager for Biological and Chemical Countermeasures (Dr. John Vitko) 
and is responsible for interacting with the biomedical countermeasures 
community, assessing the current status and any gaps as they pertain to 
overall biodefense, and guiding the Portfolio and DHS S&T activities 
appropriately.

QUESTIONS SUBMITTED TO DR. PENROSE ALBRIGHT BY CHAIRMAN THORNBERRY AND 
THE HON. ZOE LOFGREN OF THE HOUSE SELECT COMMITTEE ON HOMELAND SECURITY

Questions from Representative Dunn
    1. In your testimony, you explain that the S&T Directorate is 
helping the Information Analysis and Infrastructure Protection (IA&IP) 
Directorate develop the technological ability to map vulnerabilities 
within the oil and gas infrastructure in the Southwest states. I am 
particularly interested in this issue because of a pipeline explosion 
in 1999 that killed three children in my home state of Washington. Is 
this mapping going to be done in other regions--in addition to the 
Southwest? Have you had success working with the private sector on this 
project so far?

Is this mapping going to be done in other regions--in addition to the 
Southwest?
Yes. Our Critical Infrastructure Protection (CIP) Decision Support 
System (DSS) project supports the IAIP Directorate to understand the 
functions and vulnerabilities of all of the nation's 14 critical 
infrastructure sectors and key assets as well as the interdependencies 
among them. We have developed modeling and simulation capabilities at 
the national level as well as at the regional and metropolitan level.

Have you had success working with the private sector on this project so 
far?
Yes. The team of Department of Energy (DOE) laboratories that is 
developing the CIP-DSS for us has collaborated and worked for years 
with most of the major oil and gas associations in addition to numerous 
private companies and utilities. The associations include the American 
Gas Association (AGA), Interstate Natural Gas Association of America 
(INGAA), American Petroleum Institute (API), and the Gas Technology 
Institute (GTI). They have also worked with Olympic Pipeline (BP), 
Kinder Morgan (an integrated liquids pipeline and storage company), 
Conoco, and many of the largest natural gas utilities in the US.

    2. I was pleased to read in your prepared statement about how much 
the S&T Directorate has achieved--and I am also pleased that you 
believe long-term research must be a priority as we move forward. Do 
you feel you have the resources you need to carry out your mission on a 
day to day basis? Are there specific areas that you would like this 
committee to focus in on in the future that have not, in your opinion, 
received the attention they deserve?
The Science and Technology Directorate has reviewed its authorized 
fiscal year 2004 funding and its proposed fiscal year 2005 funding and 
presently believes the current and proposed funding is adequate. 
However, we continue to assess our research and development plans. If 
we determine that the proposed amount of our funding is not sufficient 
to meet requirements, we would bring that information forward for 
consideration through the appropriate mechanisms. Additionally, in 
order to accurately determine what level of funding is needed for our 
research, development, testing and evaluation (RDT&E) activities, we 
will continue to work with other agencies with R&D responsibilities to 
identify requirements and gaps in funding. This coordinated approach 
will assist in making the right investments while preventing 
unnecessary and wasteful duplication.
The Science and Technology Directorate recognizes there are some 
technology needs that require immediate attention. However, some 
homeland security issues require basic research to solve. Our long-term 
portfolio plans will address basic research needs.

    3. I have spent a considerable amount of time learning about a 
variety of homeland security-related technology being developed by some 
of my constituent companies in Washington State and I?m sure most of 
the other members of this committee have done the same.
    I am wondering how your directorate is working with other 
directorates to ensure that the technologies being used for different 
functions within the Department are the best we can get, and will be 
most effective in waging the war on terror here at home, and will lead 
to greater coordination among directorates?
Coordination among directorates is a top priority of the Department of 
Homeland Security (DHS). We have regular senior level management 
meetings to identify issues and share information that cross-cuts the 
Department. Once a week, a teleconference is held with representatives 
from all the components of the Department. This meeting ensures that 
personnel from each of the Directorates become familiar with personnel 
from the other Directorates to facilitate intradepartmental 
communication. In addition, a number of Science and Technology (S&T) 
Directorate staff sit on interagency working groups with staff from 
other directorates. Within the S&T Directorate, we have portfolio 
managers for Border and Transportation Security, Emergency Preparedness 
and Response, United States Secret Service and United States Coast 
Guard. These portfolio managers serve as liaisons to the other 
components of the Department and ensure that we are supporting their 
operational needs. The S&T Directorate is also responsible for 
developing standards related to technologies that DHS is creating or 
applying, and, through this function, the S&T Directorate makes sure 
that equipment and technologies are as effective as possible.

    What is the best way for a business to bring an idea to the 
attention of your office? How are those proposals currently being 
evaluated?
The best method is to read carefully DHS solicitations for technology 
concepts and ideas that are posted at http://www.fedbizopps.gov and on 
the DHS public website, http://www.dhs.gov. DHS is interested in 
pursuing technologies posted in these formal, public, competitive 
solicitations and has budgeted funds for awards to the most meritorious 
submissions.
If a business has an idea or concept that does not addresses a specific 
requirement in one of our active solicitations, we invite them to 
contact the appropriate Program Manager (PM) within our Homeland 
Security Advanced Research Projects Agency (HSARPA) by telephone or e-
mail for an initial discussion of their idea. Contact information for 
these managers will be listed on the DHS public website (www.dhs.gov) 
shortly. If the proposed idea seems to match a DHS need, the HSARPA PM 
will ask them to submit a brief white paper. If after review of the 
white paper, the approach still looks good, the Program Manager will 
suggest that the business consider submitting a complete proposal. A 
brief listing of the HSARPA Program Managers and their contact 
information is attached for information.
White papers should contain a top level summary of the concept; a clear 
description of the underlying principles and concept of operations; the 
current state of development of the key technologies proposed; 
identification of critical path technologies and the approach to 
ensuring that these will be sufficiently mature to meet development 
deadlines; an estimate of the funding level required in each year; a 
summary of related technologies and/or systems previously developed by 
the proposed team; and a brief description of the qualifications of 
principal team members. White papers are typically 5-10 pages in 
length.

The address for submitting the information is:
        Department of Homeland Security
        Attn: Science & Technology Directorate/Program Manager's Name/
        Room
        Washington D.C. 20528
or, they may be submitted electronically to:
        http://<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="067171712875656f63686563287263656e68696a69617f46626e7528616970">[email&#160;protected]</a>
If businesses so choose (especially with those applications they think 
are nearest term and most useful), they may submit a complete 
unsolicited proposal.
Part 15.6 of the Federal Acquisition Regulations, available on-line at 
http://www.arnet.gov/far, specifies the few criteria and a nominal 
submission format for unsolicited proposals. If this format is 
followed, all the required information will be at hand to evaluate the 
proposal. These unsolicited proposals should be submitted to the 
addresses listed above.
    In evaluating responses to published solicitations, the evaluation 
criteria are always published in the solicitation. The proposing 
business should always read the solicitation carefully and match their 
proposal to the content and format requirements.

    4. I would like you to expand on the subject of Man Portable Air 
Defense System (MANPADS)--you included in your testimony a brief 
description of your directorate's R&D program to understand both the 
threat posed by man-portable missiles and the technology that is 
available to address the threat. What is the department doing to 
analyze the threat from other ground-based weapons to the commercial 
aviation system--such as non-Infared (IR) guided missiles and propelled 
grenades, for example? Is the department taking a systematic and risk-
based approach to create a comprehensive, efficient response to ALL of 
these threats?
The Department of Homeland Security's Science and Technology 
Directorate maintains close coordination with the Defense Intelligence 
Agency (DIA), Central Intelligence Agency (CIA), Transportation 
Security Administration (TSA) and Department of State (DoS) 
representatives to remain abreast of all current and emerging ground-
based threats to commercial aviation. After reviewing intelligence 
analyses from agencies such as DIA's Missile and Space Intelligence 
Center (MSIC), a systematic, end-to-end countermeasures strategy is 
formulated, and a program is implemented to mitigate risks from the 
threats. The strategy focuses on three areas. DoS is mitigating risks 
from these terrorist threats through proliferation control and threat 
reduction. TSA is utilizing tactical measures to address airport 
vulnerability, perimeter security and other countermeasures working 
with law enforcement agencies. Based on these assessments, the S&T 
Directorate identifies the critical threats, analyzes the 
susceptibility and vulnerability of civilian aircraft to them, and 
formulates technical solutions necessary to counter these threats.

    Questions from Representative Weldon
    1. The adoption of standards and certification criteria for 
training, equipment and protective clothing should be one of the 
highest priorities for DHS. The reason for this importance is that 
manufacturers are hesitant to invest in the development of new 
technologies due to a fear that the government may subsequently find 
that they do not meet desired needs or specifications. Furthermore, 
public safety agencies are hesitant to acquire new technologies due to 
a fear that they will be denied compensation with homeland security 
funds. Meanwhile, valuable solutions to homeland security obstacles are 
available with no clear vision of when they will be taken advantage of. 
For these reasons, the desires of the Department must be made clear in 
the form of standards. Can you please explain the Department's plan and 
timeframe for the eventual adoption or creation of standards and 
certification criteria?
We agree that adoption of standards and certification criteria for 
training, equipment and protective clothing for emergency responders is 
one of the highest priorities of the Department. The responsibility for 
DHS standards is assigned to the Science & Technology Directorate. An 
Office of Standards has been set up that reports to the Assistant 
Secretary, S&T Directorate, and this office is working with the 
emergency responder communities and the private sector consensus 
standards development organizations to adopt existing standards that 
are appropriate, to identify needs for new standards, and to set up 
writing groups of experts drawing on the existing standards efforts at 
the Federal, state, and local levels and in the private sector. The S&T 
Directorate is working closely with the American National Standards 
Institute (ANSI) in support of their Homeland Security Standards Panel. 
ANSI is proving to be an effective partner with DHS in identifying 
appropriate standards development organizations in different homeland 
security technologies. The adoption of existing standards has already 
begun and certification criteria for laboratories are being developed 
that will leverage existing public and private sector laboratory 
accreditation organizations.

    2. Many believe that the government should not be the entity that 
writes standards. Instead, they favor the government shaping them and 
even adopting them, however the actual drafting should be left to the 
industry and voluntary consensus process that has worked so well for 
first responders for many years. The National Fire Protection 
Association (NFPA) is a noticeable leader in the creation of codes for 
training and technology, which have been in place for many years. In 
addition, the voluntary consensus standard process is an effective and 
quick process involving the private industry, agencies, users and code 
writers, which is ever evolving and used successfully in the Assistance 
to Firefighters Grant Program. Does the Department intend to draft new 
standards or does it intend to adopt those already in existence by the 
private sector and first responders?
The Department supports use of the Voluntary Consensus Process. The 
Department recognizes both the need and the value in developing 
voluntary consensus standards as required by the National Technology 
Transfer and Advancement Act (PL 104-113). The emergency responder 
communities--fire fighters, HAZMAT and EMS teams--must be directly 
involved in the standards development process. The Department is 
supporting the excellent standards development for fire fighting 
equipment and training by the National Fire Protection Association 
(NFPA). The S&T Directorate is working with NFPA and the Congressional 
Fire Services Caucus to announce five NFPA standards that will be 
immediately adopted by DHS for homeland security applications. DHS is 
also supporting standards development at the National Institute for 
Occupational Safety and Health (NIOSH) as well as research to develop 
next generation protective equipment at the North Carolina State 
University. Both NFPA and NIOSH will be involved in developing DHS 
standards for this next generation of personal protective equipment.

    Questions from Representative Gibbons
1. Part of the S&T Directorate's responsibility is to unify and 
coordinate much of the federal government's scientific efforts 
including national laboratories and academic institutions. While 
scientific research in academic settings can be used to thwart attacks 
by our enemies, it can also be used by our enemies to attack us, since 
much of the information is published openly. In January of this year, 
you spoke about ``scientific Openness and National Security.'' One of 
the problems you noted in your speech was that the scientific community 
has not established any real, unified criteria for the open publication 
of sensitive scientific research. You specifically referenced the 
public release of a Mouse Pox study and a Polio Virus study and how 
those could have harmed our national security. Could you briefly 
discuss--- first, how you now view this tradeoff between scientific 
openness and national security and--- second, while you have stated 
that you believe the federal government should not be setting 
limitations on openly published scientific works, I wonder how you 
would view a coordinated effort by the National Academies or similar 
entity to set the standards.
The tradeoff between scientific openness and national security is, and 
will continue to be, a delicate balance for all federal agencies that 
support scientific research at our nation's universities and national 
laboratories. Similar concerns exist within the private sector. The 
Department of Homeland Security remains committed to preserving the 
academic freedom and integrity that have made our nation's higher 
education system the envy of the world. However, the nation cannot risk 
the protection of our homeland under any circumstance, including the 
publication of sensitive homeland security information. The balance 
between scientific openness and national security can only occur 
through open and ongoing communication between the federal entities 
that support federally-funded research and development and the 
performers. I continue to encourage the scientific community to 
establish unified criteria for open publication of sensitive scientific 
research and I am committed to engaging with all the scientific 
community as we address this issue.
DHS would welcome the continued, thoughtful participation of the 
National Academies in formulating guidelines to assist federally-
sponsored research organizations in the determination of how best to 
safeguard sensitive homeland security information. The recent National 
Academies report, Biotechnology Research in an Age of Terrorism, 
considered the question of scientific openness and national security in 
the realm of biotechnology research. The report is extremely valuable 
and had several worthy recommendations, including the need for the 
education and involvement of the national and international scientific 
societies and associations in this important issue. In addition, the 
report recommended that scientific societies that publish research 
results establish a system for effective self-monitoring of information 
that may be considered sensitive to our national security.

    2. You mentioned that the Defense Advanced Research Projects Agency 
(DARPA) and the Homeland Security Advanced Research Projects Agency 
(HSARPA) have different missions and responsibilities. However, I can 
imagine several areas of research that could be mutually beneficial to 
both homeland security and defense. Do you believe that HSARPA and 
DARPA are in a good position to work together to take full advantage of 
each others' work? If so, what is the formal mechanism for this co-
operation?
DARPA and HSARPA are well positioned to work together. They share 
mutual interests in technologies related to Homeland Security missions. 
For example, they are now collaborating on a $10 million joint 
radiological decontamination research effort under the terms of a 
formal Memorandum of Agreement signed by both Directors. Some of the 
original HSARPA Program Managers are DARPA alumnae and maintain their 
professional ties and relationships. The Directors of the two 
organizations are in frequent contact and the immediate past Deputy 
Director at DARPA is HSARPA's current Deputy Director. At this time, 
DHS does not feel the need for a formal agreement to further structure 
this close working relationship.

Questions from Representative Langevin
    1. I know the University of Rhode Island is putting together a 
white paper on its vision of what a DHS Federally Funded Research and 
Development Center (FFRDC) should be and how it should be organized. 
How will the FFRDCs fit into DHS's overall research framework and 
goals? Can you tell us if the Directorate is anywhere near a decision 
on what their purpose and goals will be? Since the call for white 
papers is ending, when do you anticipate a request for proposals to be 
made? Will you ask Congress to increase the authorization period for 
this FFRDC (currently only 3 years), especially since it has taken so 
long to start the process of establishing it?
The Homeland Security Institute (HIS), a Federally Funded Research and 
Development Center, is being established under the authority of Sec. 
312 of the Homeland Security Act of 2002 to provide research, studies, 
analyses, analytic and computational models, simulations, and other 
technical and analytical support to the Department. The HSI will adopt 
an integrated systems approach to evaluating homeland security systems 
and technologies at all stages of development, deployment, and use.
A request for proposals was issued on December 3, 2003, with proposals 
due on January 28, 2004. The expected award date is May 1, 2004. The 
initial award will be $8.5 million in fiscal year 2004 followed by four 
additional option years projected at $30 million per year. However, 
legislation calls for the HSI to terminate November 2005. Although the 
contract will be designed to accommodate work beyond that date, either 
legislative authorization (the most desirable approach) or a completely 
new FFRDC justification will be needed to extend the operations beyond 
November 2005.

    2. I recently conducted a survey in my district of local officials 
and first responders, asking their opinion on homeland security 
concerns. Overwhelmingly, they have said that there is far too little 
information being shared by DHS with local officials, and this is 
hampering their efforts. I know they aren't alone, and I am sure that 
this is a concern every Member shares. What progress has been made on 
the information sharing standards that the Directorate was charged with 
developing? I know a big part of the concern revolved around security, 
so I?m curious to know if the work has been passed to National 
Institute of Standards and Technology (NIST), or is it being handled by 
DHS? Is there a timeline that is being followed or a deadline for 
adoption and implementation?
The Department of Homeland Security believes that this request requires 
several responses to understand the Department's initiatives to assist 
the first responders regarding access to information, intelligence, and 
standards.
DHS has several programs in place to aid in the identification, 
selection, and implementation of equipment and technology for first 
responders:
Through the Memorial Institute for the Prevention of Terrorism (MIPT), 
the Department has engaged in a research effort designed to improve 
local, state and federal emergency responders' capabilities to deter or 
mitigate terrorist use of chemical, biological, radiological, nuclear 
or explosive/incendiary (CBRNE) devices and emerging threats. This 
effort has two major components:

        1. The development of the architecture for an automated 
        knowledgebase that provides responders and planners information 
        about what technologies are already available, the extent to 
        which they have been tested, the standards they meet, their 
        consistency with the Interagency Board's Standardized Equipment 
        List, and reviews from other responders that have used them. 
        The Responder Knowledge Base became accessible this fall and 
        although it has limited information it has been well recived by 
        the community and new products are being added reqularly.

        2. The development of a national technology planning process 
        that:
        <bullet> Identifies and prioritizes the capabilities emergency 
        responders need.
        <bullet> Identifies what technologies are required to enable 
        those capabilities, and characterizes the extent to which these 
        are already available.
        <bullet> Establishes technology objectives and roadmaps by 
        which Federal RDT&E investments can be focused towards the 
        needs of responders.
In addition to the MIPT programs, DHS in response to Section 313 of 
Public Law 107-296 of its authorizing language is developing a 
technology clearinghouse, the Public Safety and Security Institute for 
Technology (PSITEC). The mission of PSITEC is to enhance public safety 
and security through the identification, development, and distribution 
of integrated technology, programs, and information. PSITEC will serve 
as the single point of entry to relevant public safety information such 
as:
        <bullet> access to and dissemination of information regarding 
        commercially available products and innovative technologies 
        including performance capabilities, training requirements to 
        implement and sustain the equipment, and the availability of 
        grant programs to facilitate the acquisition, deployment, and 
        maintenance of the equipment,
        <bullet> provide support to individuals seeking guidance on how 
        to pursue proposals to develop or deploy technologies that 
        would enhance homeland security,
        <bullet> collect information about critical incident response 
        training programs and develop a searchable data base that will 
        aid responders in identifying, comparing and selecting the 
        appropriate training courses, and
        <bullet> development of expert/mentoring systems and 
        information retrieval and analysis programs to coach first 
        responders through their online searches of existing databases 
        for clear and comprehensive information about equipment, 
        programs, training, and funding.
Information sharing with state and local officials is also a top 
priority for the Department. In particular, both our Office of State 
and Local Government Coordination (OSLGC) and the IAIP Directorate are 
focused primarily on finding ways to improve information sharing.
State and local homeland security officials already have a seat at the 
table, and are both providers and recipients of homeland security 
information. For example, the Administration's Homeland Security 
Advisory Council has a State and Local Senior Advisory Committee and a 
First Responder Senior Advisory Committee, which facilitate 
communication among states and localities on homeland security issues. 
In addition, we regularly form ad hoc state and local advisory groups 
to assist in the development and implementation of homeland security 
policies. Finally, the Office of State and Local Government 
Coordination regularly consults with state and local officials as well 
as the major associations that represent them through publications such 
as DHS Today, Fact Sheets and Press Releases. Feedback from our state 
and local constituency indicates that these improvements are making a 
difference.
The OSLGC in conjunction with the rest of DHS has made major strides, 
since its creation, to share information with states and localities. 
The OSLGC is responsible for sending out homeland security information 
bulletins and alerts, including a daily Homeland Security Operations 
Morning Brief. The OSLGC also coordinates bi-weekly conference calls 
with all of the Homeland Security Advisors in all the states and 
territories to help relay important departmental information as well as 
respond to queries from the advisors.
Through the coordination of the OSLGC, the Department has paid for and 
established secure communication channels to all of our state and 
territorial governors and their state emergency operations centers. 
This investment in communication equipment included secure video 
teleconferencing equipment along with STU/STE telephones. In addition, 
we have worked to ensure every governor has been cleared to receive 
classified information and are working with the Governors and their 
Homeland Security Advisors to provide security clearances for five 
additional people who support the Governors? Homeland Security mission. 
Finally, OSLGC coordinates resource deployment to state and local 
governments, including BioWatch, air assets and radiological detection 
pagers, to name just a few.
To address first responder requirements regarding communications 
interoperability, SAFECOM serves as the umbrella program within the 
federal government to help local, tribal, state, and federal public 
safety agencies improve public safety response through more effective 
and efficient interoperable wireless communications. To successfully 
achieve its vision, SAFECOM is working with existing federal 
communications initiatives and key public safety stakeholders to 
address the need to develop better technologies and processes for the 
cross-jurisdictional and cross-disciplinary coordination of existing 
systems and future networks.
SAFECOM is a public safety practitioner driven program, and as such, 
solicited information from representatives of public safety from the 
local, state, and Federal level in establishing the program's short and 
long-term initiatives. Two of the top priority initiatives that this 
diverse group emphasized to SAFECOM include 1) the need for an 
``information clearinghouse'' to enable two-way communication with 
public safety and 2) the development of a process to advance 
communications equipment standards. The portal, which is scheduled for 
release in the summer of 2004 and which will be accessible at 
www.safecomprogram.gov, will provide public safety practitioners with 
planning and management applications, collaborative tools, and relevant 
and timely wireless information. SAFECOM's activities in terms of 
standards will be to identify, test, and, where necessary, develop 
standards in coordination with the public safety community and ongoing 
standards activities.
Finally, the Department has implemented a standards development 
program. Working with the private sector through the American National 
Standards Institute (ANSI) and its Homeland Security Standards Panel 
(HSSP), DHS is identifying existing standards that can be adapted for 
homeland security needs. The HSSP is working to mobilize the resources 
of 280 standards-development organizations that develop voluntary 
consensus standards for products and processes. The Department is also 
working directly with the National Institute of Standards and 
Technology (NIST) on development of new standards for personal 
protective equipment for first responders, as well as standards for 
detectors for weapons of mass destruction and information technology 
standards for cyber security and for biometrics. To compliment it's 
standards development program, DHS plans to implement a standards based 
test and evaluation process to ensure that commercially available 
equipment performs as intended and meets the operational requirements 
of the first responders.

    3. From all indications, identification of critical infrastructure 
seems to be taking far more time than was anticipated. Does DHS have 
sufficient capability to accomplish this task? Are you actively working 
on new methodology to enhance and speed-up this process?

Does DHS have sufficient capability to accomplish this task?
Yes, but it is important to put this task into perspective. The 
National Strategy for the Physical Protection of Critical 
Infrastructures and Key Assets (Feb 2003) identifies 14 critical 
infrastructure sectors and key assets. The National Strategy also 
provides a sense of the magnitude of the task of identifying what is 
really critical from the following example sites; the United States 
has:
        <bullet> 1,912,000 Farms
        <bullet> 87,000 food-processing plants
        <bullet> 1,800 federal water reservoirs
        <bullet> 1,600 municipal waste water facilities
        <bullet> 5,800 registered hospitals
        <bullet> 87,000 emergency services entities
        <bullet> 250,000 firms in the Defense Industrial Base
        <bullet> 2,000,000,000 miles of telecomm cable
        <bullet> 2,800 electric power plants
        <bullet> 104 commercial nuclear power plants
        <bullet> 300,000 producing oil and natural gas sites
        <bullet> 5,000 public airports
        <bullet> 120,000 miles of major railroads
        <bullet> 590,000 highway bridges
        <bullet> 2,000,000 miles of pipelines
        <bullet> 500 major urban public transit systems
        <bullet> 26,600 FDIC-insured banks and financial institutions
        <bullet> 66,000 chemical plants
        <bullet> 137,000,000 postal and shipping delivery sites
        <bullet> 5,800 historic buildings
        <bullet> 80,000 dams
        <bullet> 13,300 federal government owned/operated facilities
        <bullet> 460 skyscrapers
The Information Analysis and Infrastructure Protection (IAIP) 
Directorate is working very hard with the infrastructure owners and 
operators to identify the most critical sites and reduce their 
vulnerabilities. Progress has already been made in identifying 
nationally critical assets. For example, for the approximately 590,000 
highway bridges, the U.S. Coast Guard (USCG), the Federal Highway 
Administration (FHWA), and the American Association of State Highway 
and Transportation Officials (AASHTO) compiled ``short lists'' after 
September 11, 2001. The Transportation Security Administration (TSA) 
then used these ``short lists'' as starting points for applying the 
criticality model. To date, the criticality model has been applied to 
approximately 15% of the nation's transportation infrastructure.

Are you actively working on new methodology to enhance and speed-up 
this process?
Yes. Our Critical Infrastructure Protection (CIP) Decision Support 
System (DSS) project supports the IAIP Directorate to understand the 
functions of all of the nation's 14 critical infrastructure sectors and 
key assets as well as the interdependencies among the sectors. We are 
developing modeling and simulation capabilities for the analysis of 
threats, vulnerabilities, and consequences (risk) at the national level 
as well as at the regional and metropolitan level. This capability will 
help us more rapidly set risk-based priorities, identify critical 
nodes, and understand interdependencies that may change the priorities. 
In addition, we have initiated a university-based research and 
development center at the University of Southern California that will 
help DHS better understand and manage risk and the economic impacts of 
our actions and policies.

    4. DHS was given broad research capabilities by the Homeland 
Security Act, how much are those assets being utilized?
The two most prominent research capabilities granted to HSARPA were the 
ability to use Other Transactions Authority for Research and Prototypes 
(OTA) to facilitate award of contracts, and the Section 1101 
Experimental Personnel Management Program to hire skilled program 
managers.
HSARPA's first major solicitation to private industry sought ideas, 
concepts and technologies for the next generation of chemical and 
biological sensors. As was the explicit intent, HSARPA expects to award 
winners of this solicitation using OTA. This powerful tool allows 
companies that have never done business with the government before the 
opportunity to participate with an absolute minimum of red tape. OTA 
will be used to create an appropriately flexible program management 
structure tailored to program development needs.
The Section 1101 Experimental Personnel Management Program authority 
has been used to hire three program managers and is the preferred 
method for a fourth prospect. The authority was essential to recruiting 
and hiring these experienced technical program managers. Section 1101 
completes the toolkit for HSARPA hiring of program managers. With four 
methods available to secure services of qualified and experienced 
program managers, (i.e., direct government hire, detail from another 
government agency, Inter-Governmental Personnel Act hiring authority 
and Section 1101), HSARPA has the flexibility and authority it needs to 
hire, retain, and rotate excellent personnel. Under the provisions of 
the law, HSARPA is required to report to the Congress annually on its 
use and progress using this authority. The first report was submitted 
16 October, 2003.
    How close is DHS in choosing a National Laboratory to carry on a 
good deal of its pure research initiatives? What about the selection of 
the University Centers, what is the plan for their selection? What 
focuses do you envision them having?
The homeland security capabilities at all the Department of Energy 
national laboratories, technology centers, and sites are important and 
vital resources to the S&T Directorate. It is essential that the 
nation's best and brightest scientific and technological expertise be 
engaged in the homeland security mission. The S&T Directorate is 
committed to utilizing the extensive capabilities of all DOE national 
laboratories to protect the homeland.

We are implementing separate mechanisms to access the capability base 
at the DOE national laboratories to guard against organizational 
conflicts of interest and inappropriate use of inside information in 
responding to competitive private sector solicitations. The S&T 
Directorate has designated five national laboratories (Lawrence 
Livermore, Los Alamos, Oak Ridge, Pacific Northwest and Sandia) as 
intramural laboratories; all other DOE laboratories, sites and 
technology centers are designated as extramural laboratories. The DOE 
national laboratories designated as intramural labs will help the S&T 
Directorate set research goals and requirements and formulate research 
and development road maps; this level of engagement gives the 
intramural labs unfair advantage, were they able to compete for funding 
awarded through open solicitations. All extramural laboratories can 
compete for open solicitations from the S&T Directorate..

    5. If DHS is focusing far more on near-term projects than long-term 
research, shouldn't there be better utilization of the TSWG, focusing 
more of DHS' research funding there?
The S&T Directorate does not focus on the concept of near-term and far-
term research as categories; rather, we seek to place the priority 
emphasis on meeting the technology requirements of first responders and 
DHS operational users in the field. Our work here must be first rate 
and get the technology out to the users as rapidly as possible. This 
effort involves improvements, modifications, cost reductions, rapid 
prototyping and other development work that is innately of shorter 
duration. We place a parallel, but necessarily smaller, emphasis on 
revolutionary technology and longer term directed research.

Revolutionary technology, if successful, upsets asymmetric advantages 
of the terrorists, re-writes technological rules of engagement 
substantially in our favor, or provides an individual, breakthrough 
capability that creates new, major operational advantages for our 
people. Revolutionary research provides opportunities to explore novel 
solutions, try multiple technical approaches to a problem, revisit 
abandoned techniques in light of new progress in other areas, and is 
the only opportunity to ``swing for the fences.'' It is not 
``curiosity-based'' research, it is mission-based research, but with 
adequate resources and opportunity to conceive new ideas, stretch 
existing concepts, and cut new paths toward a solution. These clearly 
are the efforts that permit breakthrough capabilities to emerge, and 
every dollar spent in this pursuit is worth it.

DHS provided $30 million in fiscal year 2003 and fiscal year 2004 to 
the interagency Technology Support Working Group (TSWG) to fund awards 
from our first joint Broad Agency Announcement. This Announcement 
contained 50 requirements in which both DHS and TSWG had interest. 
Because HSARPA Program Managers are members of the TSWG working groups 
and the Director of HSARPA sits on the TSWG Executive Committee, we are 
closely allied and understand their operations, funding, evaluation 
criteria, and management.

However, there continue to be areas where DHS requirements and TSWG 
requirements differ substantially. Where our interests coincide, we 
will be active funders and participants in the TSWG processes and 
solicitations. Where our requirements and theirs diverge, we retain the 
ability to solicit and develop precisely what our clients have 
requested. Specifically, the requirements for volume commercial 
manufacture and application at affordable cost often differ from 
requirements typically given TWSG by their sponsoring organizations.

    6. What is the status of the HSARPA? If its goal of near-term 
projects is similar or identical to TSWG's, why are we funding a 
duplication of efforts? How much project money has gone into HSARPA 
this year, and how does that compare to TSWG?
HSARPA was established effective March 1, 2003, with the other 
components of the S&T Directorate and the Department. It is active and 
growing. Congress established HSARPA to ``promote revolutionary changes 
in technologies that promote homeland security,'' to advance those 
technologies which are ``critical,'' and to ``accelerate the 
prototyping and deployment of technologies'' that reduce homeland 
vulnerabilities. HSARPA performs these three functions by awarding 
procurement contracts, grants, cooperative agreements, or other 
transactions for research or prototypes to public or private entities, 
businesses, federally funded research and development centers, and 
universities. HSARPA is an external funding arm for the Department of 
Homeland Security's Science and Technology Directorate.

TSWG focuses on short-term projects of interest to multiple agencies. 
Staff members from HSARPA, other S&T Directorate personnel, and 
representatives from other parts of DHS participate in the TSWG 
requirements setting process.

However, because TSWG's core funding comes from DoD, and its staff are 
DoD personnel or contractors, their requirements list is heavily 
weighted with projects of multiple agency interest that are also of DoD 
interest. Many topics of interest to DHS do not rank highly in the TSWG 
process. In other areas, there may be interagency interest in general, 
but a specific requirement of DHS (e.g., cost of ownership, time of 
delivery) necessitates that HSARPA create and manage a project to 
accomplish that goal. The TSWG process allows DHS to leverage its money 
in those areas that are appropriate for interagency work. In other 
areas, it is appropriate for HSARPA to compete proposals to satisfy DHS 
requirements. A final control on preventing inappropriate duplication 
of efforts is that the Director, HSARPA sits on TSWG's Executive 
Committee and is thus able to identify and resolve potential areas of 
overlap between HSARPA and TSWG.

Using fiscal year 2003 and fiscal year 2004 funds, HSARPA expects to 
award contracts exceeding a total value of $300 million to perform and 
support its research activities. TSWG receives a core budget from the 
Department of Defense of approximately $50M. When member contributions 
are included, as well as other participating support from the 
Department of Energy and Department of State, TSWG projects that its 
annual fiscal year 2004 budget will reach $160M.

Questions from Representative Thornberry
    1. The intent of the SAFETY Act is to remove liability and risk 
barriers to the deployment of anti-terrorism technologies so such 
technologies can be much more widely used to protect our citizens. Even 
companies that have obtained some insurance to cover liabilities 
associated with their anti-terrorism technologies may be prevented by 
liability and risk barriers from obtaining additional insurance and 
deploying such technologies as widely as they and potential additional 
customers would like. Is it the Department's understanding designation 
and certification under the SAFETY Act can be granted to entities that 
were able to obtain limited insurance (thus allowing a limited 
distribution of their anti-terrorism technology) but whose global 
liability exposure prevented that entity from obtaining additional 
insurance (thus limiting the distribution of its anti-terrorism 
technology to less than all who might benefit from it)?
Yes, it is the Department's understanding that, if all of the criteria 
set forth in the Act for Designation and Certification are met by a 
Seller's technology, and if the price of the liability insurance can be 
shown to be preventing the technology from reaching the appropriate 
market, then the ability of a Seller to obtain insurance at the higher 
level will not prevent the Department from granting a Designation.

    2. How are technical standards being established and enforced 
across the Department for cybersecurity, law enforcement or 
counterterrorism? Who set the requirements and how are they 
communicated to the technology developer or purveyor? Will there be a 
test bed(s) established to assure that technologies meet the standards 
as claimed?
Technical standards for products, services and systems are being 
developed in the Office of Standards in the DHS S&T Directorate. Many 
of the 22 agencies that were combined into the new Department have 
standards programs for products and services. These included cyber 
security requirements for which agencies follow regulations in the 
Federal Information Security Management Act (FISMA). These component 
agencies continue to use Federal Information Processing Standards 
(FIPS) as well as National Institute of Standards and Technology (NIST) 
guides for computer security (NIST 800 series guides). A common policy 
for standards for cyber security is being developed by the S&T 
Directorate, the other three directorates, and the office of the Chief 
Information Officer In the area of technical standards to support law 
enforcement, DHS is focusing on the technology requirements of 
emergency responders--including law enforcement personnel--in several 
areas including detectors for CBRNE agents, personal protective 
equipment, urban search and rescue robotics, and interoperable 
communications equipment. Performance specifications are being 
developed by consensus committees who include emergency personnel as 
well as equipment manufacturers. The Department is also establishing 
performance specifications for CBRNE detectors for use by federal, 
state and local personnel. Manufacturers are involved in the working 
groups to develop these performance standards.

In each of these areas, test beds are being established for Test & 
Evaluation (T&E) against the performance specifications developed by 
the S&T Office of Standards. T&E protocols are being developed for use 
at these test beds. T&E protocols will be provided to both private 
sector and federal test beds. Federal test beds are being established 
to allow specialized T&E for select agents and for other T&E that must 
be conducted in a secure environment.

    3. How can the certification process as required by the SAFETY Act 
be accomplished when standards have not yet been set for technologies 
seeking certification? How will these two processes be integrated? Will 
technologies that may be certified, have to be recertified if new 
standards substantially affect product acceptability?
The Department will use any existing standards that are directly 
relevant to that anti-terrorism technology, as deployed in a mass loss 
scenario, to assist in assessing the merit of any technology regarding 
SAFETY Act Certification. However, the Department anticipates that many 
of the technologies that the nation would most benefit from granting 
SAFETY Act protections will be cutting-edge, high-risk, high-benefit 
anti-terrorism technologies. Also, the term ``technology'' as used in 
the SAFETY Act is extremely broad. It includes not only devices, but 
also systems and services. As such, it is unlikely that applicable 
standards will yet exist. However, these technologies may address 
critical and time-sensitive needs. Therefore, we will be using 
additional methods to assess technology performance.

Certification as required by the SAFETY Act relies on the ability of a 
technology to meet all of the seven criteria required for Designation, 
as well as the additional criteria for Certification. Surrogates for 
meeting a standard are interpreted as those Designation criteria set 
forth in the Act as:
        <bullet> ``Prior US government use or demonstrated substantial 
        utility and effectiveness,'' and
        <bullet> ``Evaluation of scientific studies that can be 
        feasibly conducted in order to assess the capability of the 
        technology to substantially reduce risks of harm''
For Certification, a technology also must be shown to:
        <bullet> Perform as intended
        <bullet> Conform to the Seller's specifications, and
        <bullet> Be safe for use as intended
SAFETY Act technical review teams will rely on existing technology 
performance tests and analyses provided by the Seller. The teams will 
also draw on their own expertise and any similar evaluation information 
to evalute the information provided. The Office of Standards within the 
S&T Directorate will work with SAFETY Act teams to identify appropriate 
standards and Testing and Evaluation capabilities as needs are 
identified. As accredited certification laboratoriess are established, 
the SAFETY Act Office will direct those Sellers with insufficient 
evidence of performance to those labs as one alternative to addressing 
the criteria

    4. After we make the investment in R&D for new technologies and 
follow-on test and evaluation, how is the Directorate going to assure 
the technologies are going to be used?
The Science and Technology Directorate will assist industry in getting 
their technologies (as long as they meet DHS standards) in front of 
operational users, including first responders. However, it is outside 
the scope of the S&T Directorate to guarantee that particular 
technologies will be selected and procured by operational users.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
